<html>
<title> - THE EFFECTS OF THE ROADLESS POLICY ON RURAL AND SMALL BUSINESS AND RURAL COMMUNITIES</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 THE EFFECTS OF THE ROADLESS POLICY ON RURAL SMALL BUSINESS AND RURAL 
                              COMMUNITIES

=======================================================================

                                HEARING

                               before the

 SUBCOMMITTEE ON RURAL ENTERPRISES, BUSINESS OPPORTUNITIES AND SPECIAL 
                        SMALL BUSINESS PROBLEMS

                                 of the

                      COMMITTEE ON SMALL BUSINESS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                     WASHINGTON, DC, JULY 11, 2000


                               __________

                           Serial No. 106-67

                               __________

         Printed for the use of the Committee on Small Business



                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
67-682                     WASHINGTON : 2000


                      COMMITTEE ON SMALL BUSINESS

                  JAMES M. TALENT, Missouri, Chairman
LARRY COMBEST, Texas                 NYDIA M. VELAZQUEZ, New York
JOEL HEFLEY, Colorado                JUANITA MILLENDER-McDONALD, 
DONALD A. MANZULLO, Illinois             California
ROSCOE G. BARTLETT, Maryland         DANNY K. DAVIS, Illinois
FRANK A. LoBIONDO, New Jersey        CAROLYN McCARTHY, New York
SUE W. KELLY, New York               BILL PASCRELL, New Jersey
STEVEN J. CHABOT, Ohio               RUBEN HINOJOSA, Texas
PHIL ENGLISH, Pennsylvania           DONNA MC CHRISTENSEN, Virgin 
DAVID M. McINTOSH, Indiana               Islands
RICK HILL, Montana                   ROBERT A. BRADY, Pennsylvania
JOSEPH R. PITTS, Pennsylvania        TOM UDALL, New Mexico
JOHN E. SWEENEY, New York            DENNIS MOORE, Kansas
PATRICK J. TOOMEY, Pennsylvania      STEPHANIE TUBBS JONES, Ohio
JIM DeMINT, South Carolina           CHARLES A. GONZALEZ, Texas
EDWARD PEASE, Indiana                DAVID D. PHELPS, Illinois
JOHN THUNE, South Dakota             GRACE F. NAPOLITANO, California
MARY BONO, California                BRIAN BAIRD, Washington
                                     MARK UDALL, Colorado
                                     SHELLEY BERKLEY, Nevada
                     Harry Katrichis, Chief Counsel
                  Michael Day, Minority Staff Director
                                 ------                                

Subcommittee on Rural Enterprises, Business Opportunities, and Special 
                        Small Business Problems

                FRANK A. LoBIONDO, New Jersey, Chairman
RICK HILL, Montana                   DONNA MC CHRISTENSEN, Virgin 
JIM DeMINT, South Carolina               Islands
JOHN THUNE, South Dakota             DAVID D. PHELPS, Illinois
JOHN E. SWEENEY, New York            TOM UDALL, New Mexico
                                     BRIAN BAIRD, Washington


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 11, 2000....................................     1

                               WITNESSES

Rawls, Charles, General Counsel, U.S. Department of Agriculture..     1
Cook, Adena, Blue Ribbon Coalition...............................    22
Skaer, Laura, Executive Director, Northwest Mining Association...    23
Gladics, Frank, Director, Independent Forest Products Association    25
Larson, Cheryl, L.T. Logging.....................................    39
Steed, Stephen, Owner, Utah Forest Products......................    40
Vincent, Bruce, Communities for a Great Northwest................    42
Fiedler, Carl, Associate Professor, University of Montana........    45
Keegan, Chuck, Director, University of Montana...................    46

                                APPENDIX

Prepared statements:
    Rawls, Charles...............................................    54
    Cook, Adena..................................................    57
    Skaer, Laura.................................................   116
    Gladics, Frank...............................................   130
    Larson, Cheryl...............................................   143
    Steed, Stephen...............................................   149
    Vincent, Bruce...............................................   160
    Fiedler, Carl................................................   166
    Keegan, Chuck................................................   170
Additional Material:
    Prepared testimony of Thomas Michael Power...................   176

 
  THE EFFECTS OF THE ROADLESS POLICY ON RURAL AND SMALL BUSINESS AND 
                           RURAL COMMUNITIES

                              ----------                              


                         TUESDAY, JULY 11, 2000

              House of Representatives,    
Subcommittee on Rural Enterprises, Business
           Opportunities and Special Small Business
                     Problems, Committee on Small Business,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:02 a.m. in 
room 2360, Rayburn House Office Building, Hon. Rick Hill 
presiding.
    Chairman Hill. Okay, we will call the hearing to order, the 
hearing on the effects of roadless policy on rural small 
businesses and rural communities. I have a statement and I 
think I will just enter the statement in the record.
    Obviously I have a very significant interest in this matter 
in that Montana has nearly 20 million acres of U.S. Forest 
Service land. The management of those lands has substantial 
impacts on the communities, many communities of which are very 
dependent on those public lands, and the local government 
units--school districts, county governments--are very dependent 
on the revenues that come from revenue-sharing arrangements.
    And then also we have many, many small businesses who rely 
upon the national forests for their income, directly or 
indirectly. We use the forests; we live with them. The Forest 
Service is our neighbor. We recreate on these lands. We make 
our living off these lands. We are dependent on those lands for 
the economic base of our communities. So decisions that are 
made by the Forest Service are very significant.
    The ranking member is not here yet but when she does 
arrive, we will allow her to enter a statement in the record.
    We will proceed with the hearing. Our first witness is the 
Honorable Charles Rawls. I do make it a standard practice to 
swear everyone in at hearing so if you will rise and raise your 
right hand.
    Let the record show that the witnesses answered 
affirmatively. Mr. Rawls.

TESTIMONY OF CHARLES RAWLS, GENERAL COUNSEL, U.S. DEPARTMENT OF 
  AGRICULTURE, WASHINGTON, DC, ACCOMPANIED BY JAMES FURNISH, 
      DEPUTY CHIEF, NATIONAL FOREST SYSTEM, FOREST SERVICE

    Mr. Rawls. Thank you, Mr. Chairman. It is my pleasure to be 
here this morning.
    I began my career in Washington about 18 years ago working 
for the Forest Subcommittee of the House Agriculture Committee 
and worked with Congressman Marlenee and others at that time. A 
lot of related issues, most of which--it is hard to retain all 
that knowledge but anyway, I do know how important these issues 
are to you and to the people of Montana and I hope that we can 
convey today that this rule has been done with some sensitivity 
and done properly.
    With me this morning I will introduce Jim Furnish. Mr. 
Chairman, he is the deputy chief for the National Forest System 
of the Forest Service, and I think will be able to answer a 
number of your questions about the proposed regulation itself.
    Mr. Chairman, in May 2000 the Forest Service published a 
proposed roadless area conservation rule and draft 
environmental impact statement and draft environmental impact 
statement, as you know, evaluating options for conserving an 
inventory of roadless and other unroaded areas on the National 
Forest System lands. The proposed rule would do several things.
    First, it would limit road construction or reconstruction 
in unroaded portions of inventoried roadless areas except in 
certain circumstances. Second, it would require evaluation 
during the forest plan revision of whether and how certain 
roadless area characteristics in inventoried roadless areas and 
other unroaded areas should be protected in the context of 
overall multiple use objectives. The Forest Service also 
prepared and made available for comment an initial regulatory 
flexibility analysis, IRFA, and a cost-benefit analysis. This 
hearing is timely inasmuch as the public comment period of all 
of these documents remains open until July 17.
    The Reg Flex Act directs agencies, as you know, to prepare 
and make available for public comment an initial regulatory 
flexibility analysis for rulemakings that are subject to the 
notice and comment requirements of 5 U.S.C. 553 or any other 
law. However, if the agency determines that a rulemaking will 
not have a significant economic impact on a substantial number 
of small entities, the initial regulatory flexibility analysis 
requirement does not apply but the agency must make a 
certification of no significant impact and publish it, along 
with a statement that provides the factual basis for the 
certification.
    The Forest Service has indicated that it expects the 
roadless area conservation rulemaking would not have a 
significant economic impact on a substantial number of small 
entities, as defined by the Regulatory Flexibility Act. 
Nevertheless, given the significant public interest in the 
rulemaking and the comments received on this specific issue 
during the scoping process, the agency prepared an initial 
regulatory flexibility analysis. The Forest Service published a 
summary of the IRFA, along with the proposed rule, made the 
full IRFA available on the agency's website and sought public 
comment on its findings. The Forest Service requested comments 
from businesses, communities, trade associations and any other 
interested parties that had information or knew of information 
sources that would be useful in analyzing the potential 
economic effects of the proposed rule on small entities.
    And I would direct your attention to the IRFA itself, which 
certainly I do not have time at the moment to go into all the 
details of but it does propose several very specific questions. 
There are four questions dealing with exactly how people 
believe that the rule will affect small businesses and I would 
hope that in the comments, those issues are fleshed out for the 
agency.
    The Forest Service is also conducting an unprecedented 
public process to engage the public in a dialogue about the 
future of roadless areas. The Forest Service conducted more 
than 180 public meetings during its initial comment period on 
its notice of intent to prepare an environmental impact 
statement and it received more than 50,000 public comments. It 
is now in the process of conducting more than 400 public 
meetings across the country on its proposed rule and the 
accompanying documents. Again that comment period closes on 
July 17.
    It is my belief that, to date, the Forest Service has met 
its legal duties under the Regulatory Flexibility Act. The 
Forest Service has completed an initial regulatory flexibility 
analysis. Since the inception of the rulemaking process, the 
Forest Service has aggressively sought out the participation of 
other federal agencies through an interagency roadless policy 
team that includes,among others, the Small Business 
Administration Office of Advocacy. This active exchange with SBA and 
other federal agencies has assisted the Forest Service in better 
understanding the concerns of small entities. Most importantly, these 
concerns have been published in its findings and invitation for public 
comment.
    This is precisely the kind of attention to the concerns of 
small businesses, communities and other small entities that the 
act was intended to foster. Beyond that, it is premature for 
anyone to conclude what additional analysis, if any, will be 
required under the rulemaking to meet the requirements of the 
Reg Flex Act.
    And I would note that the certification of no significant 
economic impact on a substantial number of small entities can 
be made at the time of the publication of the proposed rule or 
the final rule, and that is in 605(b).
    So to sum up, the Forest Service has undertaken a 
substantial effort to both consider and disclose the potential 
implications of the roadless conservation rule for small 
entities. As the Forest Service finalizes the rulemaking, it 
has pledged to consider and respond to the public comments 
received, including any information provided regarding small 
entities. Thus, it appears to me that the purposes and 
procedures of the Regulatory Flexibility Act are being 
fulfilled.
    Mr. Chairman, that concludes my prepared testimony. Mr. 
Furnish and I would be happy to respond to questions.
    [Mr. Rawls' statement may be found in appendix.]
    Chairman Hill. Thank you, Mr. Rawls.
    I would now like to recognize the ranking member, the 
gentlelady from the Virgin Islands, for an opening statement 
and for questions.
    Ms. Christian-Christensen. Thank you, Mr. Chairman, and I 
apologize for being late.
    I want to thank the chairman for providing this additional 
opportunity for important input on this very important issue, 
particularly input from the viewpoint of our small business 
owners who stand to be impacted by any rule that would limit 
road construction in our forests, as is now being considered.
    I want to welcome all the panelists. Some of the panelists 
have traveled very far to be with us this morning and that 
attests to the importance of this issue to you, your families 
and your communities.
    The issue of the president's roadless area initiative is 
one that is a priority issue under review by the Resources 
Committee, on which I and several members of this Committee 
also sit. Once again, it brings into the forefront a discussion 
on how best to balance the need to manage, preserve and protect 
our natural resources and the need to sustain and improve 
economic conditions of potential in the communities that are 
adjacent or a part of the area in question.
    Although we in the U.S. Virgin Islands have no forests of 
the magnitude or economic potential of the ones we will be 
discussing today, this is not an unfamiliar debate to the 
community that I represent, so I want to say that I appreciate 
the deep concerns that this issue raises in the potentially 
affected communities.
    The issue of management of roadless areas has been grappled 
with, debated and fought in the courts for over 30 years. 
Because of this history and the continued limitations of 
funding to properly maintain its roads, in 1998 the Forest 
Service initiated a process to consider changes in how the 
Forest Service road system is developed, used, maintained and 
funded. Out of that process came the temporary suspension of 
road construction in certain unroaded areas and then the 
president's initiative.
    The current process, which is the subject of this hearing 
today, is in response to the president's directive to the 
Forest Service to engage in rulemaking to protect roadless 
areas that represent some of the last, best and unprotected 
wildlands. It is to address, however, the social, as well as 
the ecological impact.
    The rule would propose to immediately stop activities that 
have the greatest likelihood of degrading desirable 
characteristics of inventoried roadless areas and ensure that 
these characteristics are identified and considered through the 
local forest planning efforts.
    This issue has generated an unprecedented number of public 
comments on the rulemaking process. I want to commend the U.S. 
Department of Agriculture and the Forest Service for the 
extensive dialogue that they have begun and plan to continue. I 
trust that a prior statement made at a Resources Committee 
hearing that there is not yet any preferred alternative means, 
that the concerns of the public will be duly incorporated into 
final policy, and that the concerns about social and economic 
impact which are being raised in this comment period will be 
given equal weight in the final deliberations.
    I look forward to hearing the testimony of the witnesses 
this morning and to working with both Committees to ensure that 
at the end of this process, we have a policy that achieves the 
difficult balance between the needs of the environment and 
community development. Thank you for allowing me to give my 
opening statement.
    I would like to ask attorney Rawls, last year, as we said, 
the National Forest Service announced that they were initiating 
the rule. You received over 600,000 responses, I understand.
    My question is one of the major topics identified in what 
we are discussing today included the economic effects the rule 
would have on local economies. Have any studies been performed 
that specifically target local small businesses that rely on 
resource extraction in the national parks?
    Mr. Rawls. I will give you a quick answer and see if Mr. 
Furnish wants to comment further. In reading the initial 
Regulatory Flexibility Act analysis which has been published 
and made available to the public, it does go through sector by 
sector, not only minerals but other sectors of the affected 
small business community--timber, recreation, and so on. And I 
guess I would commend that document to the Committee to look 
at. I believe it is quite good but you can certainly make your 
own judgments, I think, if you look at it.
    Ms. Christian-Christensen. There were studies that 
specifically targeted the local small businesses.
    Mr. Rawls. Yes, they do. As I say, in a sector-by-sector 
analysis. I think in fairness, it was pointed out in the 
analysis that it is difficult for the Forest Service to do this 
type of work with a great deal of specificity. They do not 
track exactly the number or names and so forth of the small 
businesses in the communities that they deal with.
    So there are limits to the analysis but they did attempt to 
take a good view of how the rule, proposed rule, would affect 
these different sectors.
    Ms. Christian-Christensen. We will look at the document.
    My second question is about the issue of health and safety 
of the forests. Opponents of the roadless initiative have 
argued that the rule prevents the Forest Service from ensuring 
the health and safety of the forest. It is my understanding 
that the Forest Service will still ensure the safety and health 
of the national forests by practicing the proper management of 
the forest for such purposes.
    Do you agree that the safety and health of the national 
forests is a legitimate concern with the roadless policy? Will 
this roadless policy make it more difficult to ensure the 
health and safety of the forest?
    Mr. Rawls. I might ask Mr. Furnish to respond to that. I do 
not believe that it would.
    Mr. Furnish. I think we have a number of forest health 
concerns that overlay the entire National Forest System from 
the East Coast to the West Coast. The intersection of this 
issue then with the roadless inventoried areas--yes, there is a 
connection in that we do have some forest health issues in 
these roadless areas. There have been some studies that suggest 
that the mere existence of roads contributes to some 
degradation to the overall forest health. The lack of roads 
would also limit or inhibit to some extent the ability of the 
Forest Service to manage certain resource issues where forest 
health issues appear.
    So yes, we are dealing with a portion of the National 
Forest System. There are certain forest health issues in these 
roadless areas. Under the proposal that we now have before the 
public, we would have to manage these forest health issues 
without the construction of new roads.
    Ms. Christian-Christensen. As I said in my opening 
statement, I do not come from a place where there are many 
forests, but what is better, for instance in the issue of fire 
prevention? I think some of the other subsequent speakers will 
speak to the fact that where logging is taking place, the old 
trees, the diseased trees that may be more likely to promote 
fires would be gone, whereas in a situation where there are no 
roads and the practices that the loggers use to keep the trees 
healthy not being in place would promote more fires or would 
make it easier for fires to spread.
    Can you help me understand which view is correct?
    Mr. Furnish. I do not know that any particular view is 
correct but at least I would characterize it this way. You have 
both the source of ignition of fires, often of which are 
natural-caused, like lightning. Other sources of fire ignitions 
are humans. There have been numerous studies that have shown 
that the existence of roads and enabling people to enter the 
forest sometimes increases fire risk because there are more 
people available to start fires. So you have that issue.
    The second really is the condition of the forests. And 
certainly where you have a lot of dead and downed and dying 
material, very dense, congested forests, then these are prone 
to burn hotter and more severely than others and this really, I 
think, is at the heart of some of this forest health issue, is 
do we have the capacity to manage the vegetation in such a way 
that we can minimize the risk of catastrophic wildfires?
    Mr. Rawls. Mr. Chairman, before we leave this point it did 
occur to me that we probably should point out on this health 
and safety issue that under the proposed regulation, a road is 
allowed to be constructed or reconstructed in an inventoried 
roadless area if the manager on the ground determines that the 
road is needed to protect public health and safety in cases of 
imminent threat of flood, fire and other catastrophic events, 
it says that without intervention would cause the loss of life 
or property. So I think that that might be relevant, too, in 
thinking about how the rule would deal with those concerns.
    Ms. Christian-Christensen. Thank you.
    I do not have any further questions at this time, Mr. 
Chairman.
    Chairman Hill. I thank the gentlelady. I have a few 
questions and then I am going to come up there. I do not see so 
well, so I am going to--I have some maps that I want to refer 
you to and ask some questions specifically about that.
    Is it true that the Department of Agriculture believes that 
this proposal will not have a significant economic impact, Mr. 
Rawls?
    Mr. Rawls. Well, the Forest Service in its analysis says 
that they do not believe it will have a significant impact on--
significant economic impact on a significant number of small 
entities.
    Chairman Hill. And why does it believe that?
    Mr. Rawls. I think for two reasons. One is I think that 
their best case analysis is that the numbers are not there. 
They have not been able to----
    Chairman Hill. The numbers of what are not there?
    Mr. Rawls. The number of either entities or the economic 
effects.
    Chairman Hill. That you do not possess the numbers or the 
numbers do not exist?
    Mr. Rawls. Well, that they have not been able to determine 
that the significant effect would be there on those numbers. Do 
you understand what I am saying?
    Chairman Hill. But I want to be clear about this. Are you 
saying that you do not possess the information, so you cannot 
make the analysis, or that your analysis indicates that there 
are not enough entities?
    Mr. Rawls. I think what they have said is that based on the 
information they have, they do not find the significant 
effects.
    Chairman Hill. Are you saying that if the Forest Service is 
not in possession of this information, it has no obligation to 
try to obtain it?
    Mr. Rawls. I do not know that I would say that and I would 
say that what I appreciate about what the Forest Service did 
was that they, in recognizing the importance of these concerns, 
they have asked. They have published the initial analysis and 
have asked for comment. I think in reading the documents, you 
will see that they really want this information.
    Chairman Hill. You would agree that the Forest Service is 
not only obligated to obtain this kind of information because 
of the Reg Flex Act. It is also under NEPA, under the social 
and economic impacts under NEPA it is required to obtain that 
kind of information, as well, is it not?
    Mr. Rawls. I have not really looked at NEPA to prepare for 
this hearing.
    Mr. Furnish. I could answer that. Yes, we are required to 
assess the social and economic impacts of any proposal.
    Chairman Hill. The difference, of course, under the Reg 
Flex Act is that you are required to try to mitigate those 
impacts as they might occur to small businesses as a 
consequence of this rule if it is determined that the rule 
would affect it. Is that not correct, whereas under NEPA, you 
are not necessarily required to address the specifics of small 
business.
    Mr. Furnish. In the event that the rule is perceived to 
have a significant effect on a substantial number of business 
entities, then there is some obligation to pursue mitigation of 
those effects.
    Chairman Hill. Is the question then----
    Mr. Rawls. Mr. Chairman, before you move on, because I am 
not sure that Reg Flex would require the agency to address 
necessarily the small business----
    Chairman Hill. The proposed alternatives to minimize the 
impacts on small business.
    Mr. Rawls. Well, they need to look at alternatives but I 
take it you agree at the end of the day, they simply need to 
lay that out, display it and get----
    Chairman Hill. Which leads to the next question. Has the 
Forest Service proposed any alternatives as a consequence of 
the initial regulatory flexibility analysis?
    Mr. Rawls. I cannot recall exactly how that is written. 
Frankly it is a difficult issue because----
    Mr. Furnish. Let me ask you to be as specific as possible. 
Are you asking whether or not any new alternatives have been 
prepared that would be analyzed for the final environmental 
statement as a direct result of this IRFA?
    Chairman Hill. That is correct.
    Mr. Furnish. No.
    Chairman Hill. Does the Forest Service know how many small 
businesses participate in the small business timber set-aside 
program?
    Mr. Furnish. Yes, I think we have some estimates of those. 
Without pulling a number out of thin air, I think they number 
in the hundreds.
    Chairman Hill. The reason I ask that question is in the 
initial analysis it indicated that it did not have good data in 
order to be able to project the impacts. So my question is do 
you have that information in order to develop an analysis of 
how it impacts small businesses?
    Mr. Furnish. I think impact is viewed in the context of the 
Regulatory Flexibility Act, would be viewed somewhat 
differently than under NEPA. I think our view is that this 
regulation does not propose to directly regulate small business 
and as such, the number of businesses or communities directly 
impacted under the context of NEPA, the Regulatory Flexibility 
Act, is quite limited.
    Chairman Hill. The conclusion I draw from what you just 
said is that you are saying that since you are not directly 
impacting these businesses, you did not bother to assess how 
many businesses would be impacted. Is that what you are saying?
    Mr. Furnish. I think I am suggesting that we are not 
directly regulating the businesses.
    Chairman Hill. That is what I thought you said.
    Does the Forest Service know how many small businesses or 
businesses, for that matter, have perfected mining claims in 
the national forests?
    Mr. Furnish. How many businesses have perfected mining 
claims?
    Chairman Hill. Yes.
    Mr. Furnish. Are you including individual persons as a 
business?
    Chairman Hill. Yes, I am.
    Mr. Furnish. I would enumerate those in the thousands.
    Chairman Hill. Right. If I might step down, I have a couple 
of maps I want to draw your attention to.
    Mr. Furnish. Certainly.
    Chairman Hill. In essence, what you are suggesting is that 
these regulations do not directly impact businesses, so 
therefore you do not have to develop alternatives.
    These maps came from the Forest Service and I apologize to 
members at the podium; I can turn it and show it to you 
briefly.
    The blue areas on this map--this is a map of Forest Service 
lands in Montana--the blue areas are the areas proposed under 
the new roadless, unroaded initiative and the red squares are 
perfected mining claims that exist. And I think you made 
reference to the fact that this numbers literally in the 
thousands.
    Mr. Furnish. Yes.
    Chairman Hill. And I think this dramatizes that.
    Now, I want to point out the white areas in these forests 
are not areas left to multiple use. For the most part, these 
are now wilderness areas.
    Mr. Furnish. Yes, I recognize that.
    Chairman Hill. And the blue areas are now the areas that 
would fall under this new roadless initiative.
    If this regulation inhibits these people from being able to 
access their property, do you think that they are being 
directly impacted by that regulation?
    Mr. Furnish. I am unclear as to how this proposal would 
directly affect their ability to perfect their mining claims.
    Chairman Hill. The question is where they could access 
them. I mean this proposed regulation is to decommission roads, 
to stop the maintenance and reconstruction of roads and to stop 
the construction of new roads.
    If these people--the question is if these people cannot 
access their property as a consequence of this regulation, are 
they being impacted?
    Mr. Furnish. I believe there is an exclusion in the 
proposed rule that permits road construction for existing 
rights.
    Chairman Hill. That is the question. My question is if they 
are going to be denied access to their property as a 
consequence of this rule, if they are, would it impact them? 
The answer is yes or no.
    Mr. Furnish. I am just not sure I agree with the premise of 
the question.
    Chairman Hill. Next question is in the IRFA you suggested 
that relatively small numbers of timber sales would be impacted 
by the rule. This is a map of the Lewis & Clark National 
Forest, the Jefferson Division.
    Mr. Furnish. Yes.
    Chairman Hill. This dark green area, striped area, is 
wilderness study area. The green area is wilderness area and 
the gray areas are the proposed new roadless areas in this 
particular forest.
    Mr. Furnish. Yes.
    Chairman Hill. I think you can see from this that on a 
combined basis, this consumes 90 percent, 95 percent of this 
division of the forest. Would you agree with that?
    Mr. Furnish. Yes, at least the combination of all three.
    Chairman Hill. The combination of all three.
    Mr. Furnish. It incorporates the vast majority of the 
available national forest.
    Chairman Hill. What I want to point out to you is all these 
small dark blue and dark green areas here, right here, are 
timber sales that have occurred in areas that are proposed to 
be designated as unroaded or roadless areas.
    Would it be correct to conclude that those sales would no 
longer be permitted under this proposed regulation?
    Mr. Furnish. It is possible but I do not believe that is a 
correct assumption.
    Chairman Hill. It is likely, though, is it not?
    Mr. Furnish. Well, I do not even know that I would 
characterize it as likely. It is certainly possible in that 
historically we accomplish much of our timber sale activity in 
conjunction with road construction, but there are other ways to 
harvest timber without new road construction.
    Chairman Hill. When the moratorium was announced, there 
were scheduled sales in these areas, were there not? How many 
of those sales went forward during the moratorium period?
    Mr. Furnish. I do not have those figures at my disposal.
    Chairman Hill. I will tell you that none did. Would it 
surprise you if none did? They were all suspended?
    Mr. Furnish. No, that would not surprise me.
    Chairman Hill. Lastly, if you notice, these are dark blue 
squares here.
    Mr. Furnish. Yes.
    Chairman Hill. Those are lands owned by somebody other than 
the federal government--other government agencies.
    Mr. Furnish. Okay.
    Chairman Hill. And you can see that in some instances those 
would be entirely landlocked.
    Mr. Furnish. Yes.
    Chairman Hill. If those, in this instance, the state of 
Montana, cannot access its property as a consequence of this 
roadless initiative, would you say that this regulation has an 
impact on that local government or that government unit?
    Mr. Furnish. I just do not agree with the conclusion. I do 
not think there is any provision----
    Chairman Hill. I am just saying if that occurred, would it 
have an impact? I am not saying that it is necessarily going to 
but I am saying if it occurred, would it have an impact?
    Mr. Furnish. Yes, it could have an impact on certain 
isolated parcels. Again, whether that would be considered a 
substantial impact I think is an open question in the context 
of the entire state of Montana.
    Chairman Hill. The administration's assertion is that these 
are pristine areas and they need to be maintained as pristine 
areas. Is that correct?
    Mr. Furnish. I think some would be characterized as such. I 
do not know if that would necessarily be a blanket condition of 
all areas.
    Chairman Hill. It is the word that the President used when 
he announced the initiative. I would not want to quarrel with 
him.
    This happens to be the road in the Lolo National Forest, 
another national forest in Montana. These areas that are in the 
checkerboard with the dark lines around them are proposed new 
roadless areas or areas to be incorporated into this new rule.
    These red lines here are all roads that currently exist in 
those roadless areas.
    Mr. Furnish. Yes.
    Chairman Hill. Could you explain to the Committee how an 
area could be designated as roadless or unroaded and have this 
many miles of road?
    Mr. Furnish. I think that is why we have taken pains to be 
very careful about describing these as unroaded portions of 
inventoried roadless areas. Since these areas were inventoried 
back in the late '70s, we have had two decades of management. 
There were cases, such as you are portraying here on the map, 
where there was active management in some of these inventoried 
roadless areas. That is why there has been road construction, 
harvest units, et cetera, in these inventoried roadless areas.
    The purpose of this rule is to apply to those unroaded 
portions of the inventoried roadless areas. So to the extent 
that they have been roaded, the proposal would not apply to 
those areas.
    Chairman Hill. Well, this map was prepared by the Forest 
Service to describe the areas that would be impacted and you 
can see that there are significant areas that would be impacted 
here that currently have roads on them.
    And I want to further draw your attention to these small 
colored areas within these boundaries. These are all areas that 
have been actively timber harvested within these roadless or 
unroaded areas.
    Mr. Furnish. I might add our estimates are about 10 percent 
of the inventoried roadless area has been actively managed in 
the last 20 years.
    Chairman Hill. Lastly, I draw your attention to the purple 
squares.
    Mr. Furnish. I believe those are state of Montana.
    Chairman Hill. Those are state of Montana lands. In some 
instances the state of Montana lands are totally surrounded by 
what would now be unroaded or roadless areas. Again I would 
draw the attention, and I think you probably are aware of the 
fact that Montana has a constitutional mandate that these lands 
be managed for its economic benefit, as opposed to other 
benefits.
    Mr. Furnish. Yes.
    Chairman Hill. If these designations would in some way 
restrict the state of Montana from fulfilling its 
constitutional obligation, if it would----
    Mr. Furnish. That is a very big if.
    Chairman Hill. I understand it is a big if but if it did, 
that would have a direct impact, would it not?
    Mr. Furnish. Well, our proposal, as written, honors these 
constitutional privileges for not only states and other public 
ownerships but also private ownerships to access their 
property.
    Chairman Hill. I can show you map after map of forests in 
Montana that show the following things, and that is that these 
areas have been actively, actively managed. They have existing 
roads. As I understand the proposed rule, the rule would give 
priority to the decommissioning of roads in these inventoried 
roadless or unroaded areas; is that correct?
    Mr. Furnish. I believe we have another rule developing a 
roads policy for the agency that addresses that issue. I do not 
believe that the roadless proposal is explicit about that 
issue.
    Chairman Hill. You raise an important point. The important 
point that you raise is that you really do have to take the 
context of these various regulations together, do you not? I 
mean you are developing a transportation policy, you are 
developing a plan for these roaded and unroaded areas.
    Mr. Furnish. Yes.
    Chairman Hill. Congress has been trying to get the Forest 
Service to address a management plan for the forest health 
issues, the catastrophic fire issue out there, which we have 
been promised for some time and it has not been developed.
    You have the Interior Columbia Basin Ecology Management 
Plan. You really have to put all these into context, into a 
collective context, do you not, in order to understand what the 
total impact would be?
    Mr. Furnish. There is----
    Chairman Hill. Would you agree with that?
    Mr. Furnish. There is a relationship among the various 
initiatives, yes.
    Chairman Hill. Do you not believe that the analysis of 
whether or not this should be subject to the Regulatory 
Flexibility Act ought to be taken in the context of all of 
these different management initiatives that are taking place 
simultaneously, as opposed to segregating them one from 
another?
    Mr. Furnish. I will leave the counsel to comment on that.
    Mr. Rawls. Mr. Chairman, the act certainly does not require 
that, so I think the short answer is no. I think it is a good 
policy idea for the Forest Service to be trying to look at 
these policies in conjunction with one another and I believe 
that they are doing that but I do not believe that the act 
requires it.
    Chairman Hill. If, in essence, the argument is that the 
impacts are being mitigated by a rule that is being developed 
in another area, so therefore we do not have to worry about it, 
then do you not believe then that you have to look at those 
together? I mean you cannot have it both ways, Mr. Rawls. You 
cannot say well, we have another rule development going on over 
here, so we do not have to address the impacts on small 
business there or local governments, and then not look at them 
in concert with one another.
    And I would suggest to you perhaps that the administration 
purposely developed these initiatives independent of one 
another so as to avoid its responsibility under Reg Flex. Would 
you respond to that?
    Mr. Rawls. I think you are giving us too much credit.
    Mr. Furnish. I would be happy to respond to that. That is 
absolutely false.
    Chairman Hill. Lastly, and then I will let others ask 
questions here, would you provide for the Committee 
correspondence, e-mails, that kind of activity that has 
occurred between the Forest Service and the Small Business 
Administration from the point at which you initiated this 
proposed rule with regard to the issue of Reg Flex so that the 
Committee can have the full knowledge--this is an oversight 
hearing--the full knowledge of what communications have 
occurred between the SBA and the Forest Service with regard to 
this issue?
    Mr. Furnish. I believe that we would. That is within your 
authority to ask for that and we can certainly do that.
    Chairman Hill. Thank you. I thank the Committee for 
indulging me that much time.
    Mr. Rawls. Mr. Chairman, before you more on, I am sorry but 
we focussed on--I said there were two reasons the Forest 
Service did not think that Reg Flex was applicable and we 
focussed on the first part of that.
    The second part Mr. Furnish mentioned but I think it is 
worth noting again, and that is the notion that this proposed 
regulation does not directly regulate small entities and I 
think that that is certainly where the law is developing. There 
is an Eleventh Circuit case and a case here at the D.C. Circuit 
that is very clear on that and I thought before we left the 
subject that I should mention that that would be the second, 
most important reason, in answer to your question.
    Chairman Hill. And I saw that in your testimony and I made 
note of that, actually. It was repeated throughout the 
initiative analysis.
    The point I was trying to make, however, is that there are 
people who are going to be directly impacted--directly 
impacted--by these regulations, or at least could be. 
Governments can be directly impacted. Property owners could be 
directly impacted. People with mineral rights, oil and gas 
rights, private property owners who have in-holdings--all of 
those people could be directly impacted.
    Communities could be directly impacted by the increased 
fire hazard associated with the decision to not manage, the 
fire impacts. Those are direct impacts.
    And I know that you have drawn that conclusion. I think it 
is the wrong conclusion. I think you have drawn it 
substantially because you made the decision in the beginning 
that you were not going to be subjected to it, so the Forest 
Service basically did an analysis to justify that. But there 
are direct impacts here and that was my point.
    The Chair would now like to recognize Mr. Phelps.
    Mr. Phelps. No questions.
    Chairman Hill. Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman.
    The roadless policy proposes to terminate the construction 
of new roads in roadless areas. The roadless policy will not 
close any existing roads or trails; nor will it block legal 
access to private or state lands.
    There are already over 380,000 miles of official roads of 
the national forests, enough to encircle the earth 16 times. 
Recently, the National Forest Service announced that currently 
they have an $8.4 billion maintenance and reconstruction 
backlog in its road system. It could be argued that the timber 
industry is not profitable enough to pay for the current road 
upkeep.
    What indications are there that more cutting and road 
construction will provide funds to alleviate the backlog if the 
current system has not been able to keep pace?
    Mr. Furnish. I do not believe there are any indications.
    Mr. Udall. It could also be argued that the $8.4 billion 
backlog will only increase with more road construction for 
timber cutting. Does it make sense to continue road 
construction for timber cutting when currently we cannot 
maintain the current system of roads?
    And two, the degradation of the current road system will 
only be environmentally detrimental to the surrounding forests, 
making it unsuitable for timber cutting.
    Mr. Furnish. If I might, I would just like to digress a 
moment and provide some important----
    Mr. Udall. Please do.
    Mr. Furnish. (continuing) Historical context. I think in 
the post-World War II years when the forests were largely 
unroaded, we went through several decades of active development 
and I think I would characterize the Forest Service as being a 
road development agency and we characterized our roads as 
forest development roads.
    I think the road, the transportation policy that was 
alluded to earlier is an effort on our part to transition from 
a road development agency to a road management agency and 
particularly as it relates to the contribution of timber 
harvest to the development of and management of the road 
system, it is worth noting that the timber industry not only 
constructed a great portion of this road system but also 
maintained through contractual obligations much of that road 
system.
    When we were operating at nearly 12 billion boardfeet a 
year, it was a very active system--a lot of new roads being 
constructed, a great deal of roads being maintained and 
managed.
    With the current level at about 3 billion boardfeet per 
year, a great deal has changed in that equation and I think the 
Forest Service has found that we have experienced a great deal 
of loss with the lack of contribution from timber industry in 
managing our road system and we have to seek a new way into the 
future.
    I think both this roadless proposal, as well as our 
transportation policy initiative, are intended to redirect our 
energies and strategies in that effort.
    Mr. Udall. So really what you are trying to do is deal with 
a situation where the cut was much higher----
    Mr. Furnish. Yes.
    Mr. Udall. And now it is much lower and you are trying to 
find the right balance in terms of roads.
    Mr. Furnish. Yes.
    Mr. Udall. And clearly if the cut is--you said 12----
    Mr. Furnish. 12 billion.
    Mr. Udall. 12 billion boardfeet to 3, you do not need 
nearly as many roads in order to deal with that situation.
    Mr. Furnish. I think that is a fair summary, yes.
    Mr. Udall. Now supporters of the roadless initiative have 
argued that these areas are roadless because the timber 
industry has no interest in those areas, one of the reasons 
being that some of those areas are unsuitable for timber 
production.
    In your opinion, what percentage of the areas designated 
under the roadless policy is currently suitable for harvesting?
    Mr. Furnish. I am reluctant to select a numerical figure. 
If that is of particular interest, maybe we can do a little 
research before the hearing is over and try to provide a 
specific number.
    I think what is interesting is that I think there are a 
variety of reasons why many of these areas remain roadless 
after 100 years of national forest management by the Forest 
Service. It is oftentimes because they are sometimes the least 
desirable or least effective in terms of theirtimber production 
potential.
    We have tried our best to disclose the impacts of this 
roadless proposal on the timber harvest activities in these 
areas and generally speaking, we estimate this to be 1 to 2 
percent of our current national program.
    Mr. Udall. I would like those figures if you can get that 
together.
    Mr. Furnish. Yes, we can certainly provide that.
    Mr. Udall. Specifically, I have three national forests in 
my district--the Carson, the Santa Fe and the Sebola--and I 
wonder for that particular question on percentage of areas 
designated under roadless policy is currently suitable for 
harvesting. If you could get me those figures, it would be very 
helpful.
    Thank you very much, Mr. Chairman.
    Chairman Hill. Mr. Baird.
    Mr. Baird. Thank you very much, Mr. Chairman.
    I would also appreciate the data that Mr. Udall requested, 
particularly for the GP, the Gifford Pinchot. Of interest to me 
is some further definition of suitable for harvesting. I am 
particularly interested in mature old growth versus late 
successional versus second growth, that kind of thing.
    Mr. Furnish. Yes.
    Mr. Baird. I am interested in the issue of fire control in 
these areas and I know that on the one hand, people assert that 
well, if people get into the woods via these roads that that 
poses a significant fire hazard; they are more likely to have 
humans cause fires through various human activities, be it 
automobiles or discarded cigarettes or campfires or what-not.
    Mr. Furnish. Yes.
    Mr. Baird. Conversely, though, there is concern about this 
possible mass conflagration that nobody can get into to put out 
and I actually share that concern a little bit. Could you 
comment on that a little bit for us?
    Mr. Furnish. Well, I alluded to that earlier. I would say 
that I think the Forest Service has certainly strived to 
perfect the art of initial attack on fire ignitions where no 
roads exist. We have, of course, the storied smokejumpers but 
we also have developed some of the newer technology with 
helitac crews and that type of thing. And I would say that 
today the Forest Service enjoys about a 98.5 percent success 
rate on initial attack.
    Certainly when conditions are such, when you get ignitions, 
if they are accompanied by low humidity, high temperature, high 
winds, it stresses any organization to effectively prevent 
large project fires from developing, and this would be true 
regardless of whether they were in roaded terrain or unroaded 
terrain.
    Mr. Baird. I may have missed it; you may have commented on 
this earlier. One of the concerns I hear is that the 
president's Northwest Forest Plan established a certain level 
of boardfeet for harvest, which has not been met and there is 
concern that the roadless plan would perpetuate that. Would you 
offer some comments on that?
    Mr. Furnish. I think the impact of this roadless proposal 
on that particular issue is very minimal.
    Mr. Baird. How so?
    Mr. Furnish. I can't give you a number here right now, but 
at least our analysis is that most of the national forests in 
the Douglas fir zone, including Gifford Pinchot, would be 
minimally impacted by this roadless proposal.
    Mr. Baird. That would be helpful if you could get me some 
data on that. Minimally impacted because other environmental 
constraints--i.e., salmon protection and spotted owl--have 
already set aside so much or minimal impact because of the 
level of harvestable timber, or both?
    Mr. Furnish. It is a number of contributing factors there. 
I think one is the implications of the Northwest Forest Plan 
itself, with the establishment of late successional reserves 
and riparian reserves, have limited the harvest significantly. 
And then when you overlay the roadless areas, which in many 
cases are quite minimal in the Pacific Northwest, then you 
begin to look at the interface between the roadless inventory 
and these other allocations of land; the doubling up of impact 
there is very minimal.
    Mr. Baird. If you could get me that information, that would 
be very helpful, either in graphic and visual form through 
maps--that would probably be the most conducive to an analysis.
    Mr. Furnish. Okay, we can do that.
    Mr. Baird. I am assuming from what you are saying that 
given that there is no logging taking place in these areas 
currently, that you do not see this as having--I mean there is 
plenty of logging in the Pacific Northwest obviously but in the 
areas that are particularly affected by the roadless plan, you 
do not see it as having a short-term adverse impact on economic 
conditions right now, or am I inaccurate?
    Mr. Furnish. Well, I would say in the vast portion of the 
United States that is true. Certainly the impacts of this 
proposal on the Tongass National Forest in Alaska would have 
been dramatic and significant. I think that had a great deal to 
do with the exclusion of the Tongass National Forest from the 
provisions of this, prohibition on road construction, as well 
as the Tongass Timber Reform Act, which was some legislation 
that we felt had an influence on that determination.
    And it is true that particularly in areas in the inter-
mountain West, notably Idaho, Nevada, Utah, and to a lesser 
degree Montana, where larger portions of the national forests 
are still in this inventoried roadless condition, then you 
would have much larger impacts on potential timber harvests.
    Mr. Baird. In the Northwest, the Doug fir and the hemlock 
forests less so?
    Mr. Furnish. Very little impact. And I would say nationally 
we have estimated this would be about 1 to 2 percent of our 
national program would be precluded if road construction were 
prohibited in inventoried roadless areas, but that percentage 
does rise. I think the highest in Utah is estimated to be about 
8 percent.
    Mr. Baird. Thank you, Mr. Chairman.
    Chairman Hill. I thank the gentleman.
    I want to go back for just a moment to this issue of the 
backlog of maintenance in the forests. There is an estimate 
that it is about $8 billion worth of backlog of maintenance of 
roads in the national forests. But if we talk about the typical 
logging road, the gravel road that exists in the forest, what 
does it cost per mile to maintain those roads?
    Mr. Furnish. Well, something on the order of maybe $80 to a 
few hundred dollars per year.
    Chairman Hill. Per mile?
    Mr. Furnish. Per mile, yes.
    Chairman Hill. The reason I make that point is that if you 
took the whole 380,000 miles of road and you multiplied it 
times that cost, you do not get to $8 billion. You do not even 
get close, do you?
    The point is that the $8 billion number has a lot to do 
with the highways and main arterial roads and bridges that 
exist in these national forests.
    Mr. Furnish. Yes. Certainly more----
    Chairman Hill. And that is where the big numbers are.
    Mr. Furnish. It is more costly to construct, much more 
costly to maintain.
    Chairman Hill. At a hearing in the Resources Committee I 
think Mr. Dombeck suggested that probably $100 million a year 
additional funding would provide the Forest Service enough 
money to maintain the roads it cannot currently maintain. Would 
that number surprise you? That would be doubling, incidentally, 
the budget I think you now have for road maintenance.
    Mr. Furnish. That sounds a little low to me.
    Chairman Hill. How many miles of road are you maintaining 
with your current road maintenance budget?
    Mr. Furnish. Well, we are striving to maintain all of it, 
but to varying degrees. I think certainly you would understand 
that a road that is on the system that is in a closed status 
would require very little maintenance, as opposed to an 
arterial road.
    Chairman Hill. The question, earlier you made the comment 
that timber companies maintain the roads under contract because 
they were using them to haul logs and obviously they had an 
impact.
    Mr. Furnish. Yes. This was often in the form of cooperative 
deposits of cash that they would give the agency or----
    Chairman Hill. Or credits.
    Mr. Furnish. Or they would actually do the maintenance 
themselves.
    Chairman Hill. What percentage of the use of the Forest 
Service roads is timber company use?
    Mr. Furnish. Today?
    Chairman Hill. Today.
    Mr. Furnish. Probably less than 5 percent.
    Chairman Hill. So 95 percent or more of the use of these 
roads is other than for the purpose of timber harvest, is it 
not?
    Mr. Furnish. I think that would be a fair estimate.
    Chairman Hill. Well, if only 5 percent is for timber 
harvest, then 95 percent----
    Mr. Furnish. Yes, it is a fair estimate.
    Chairman Hill. Fair estimate. So who are those 95 percent?
    Mr. Furnish. I would characterize them mostly as 
recreationalists and/or people who live in, around and near 
national forests that use the national forest roads to travel.
    Chairman Hill. And fire safety, fire suppression?
    Mr. Furnish. Yes. Obviously there is a certain amount of 
that that is actually Forest Service usage of roads, as well.
    Chairman Hill. My point simply is that if we start 
decommissioning roads, elimination of roads, stop maintenance 
of roads, proportionately 95 percent of the impact is going to 
be on recreationalists, not timber companies, is it not?
    Mr. Furnish. I think I agree, as I understand your 
question.
    Chairman Hill. And that is the point. Earlier you said that 
the argument is made that when people get in the forest, they 
increase the impact, the likelihood of fire.
    Mr. Furnish. That can be true, yes, that oftentimes the 
increase in fire ignitions is associated with human activity.
    Chairman Hill. Is it the goal of the Forest Service then to 
stop people from being able to access the forests so as to 
reduce the hazard of fire to the forests?
    Mr. Furnish. No.
    Chairman Hill. Okay, I just wanted to make sure that that 
was not the case. But 95 percent of the impacts of this policy 
are actually going to be on recreationalists, which brings me 
to another point and a big one. That is that----
    Mr. Furnish. I am not sure I follow that.
    Chairman Hill. To what degree did you analyze the impacts 
on small businesses such as snowmobile dealers, off-the-road 
vehicle dealers, outfitters, those kinds of people, those kinds 
of small businesses that also depend upon the access to the 
forests and these roads that provide the access to the forests? 
To what degree did you analyze the potential impacts that this 
policy would have on those businesses? Because this would be a 
direct impact. If they cannot get access to the forests in the 
way that they had before, this regulation is a direct impact on 
that business.
    To what degree did you try to analyze that in this initial 
regulatory flexibility analysis?
    Mr. Furnish. The IRFA that the Forest Service has completed 
and posted on the website and summaries and that kind of thing 
are available, sought to illustrate the connections between 
this policy proposal and the existence of these businesses. I 
think what we felt was that because there was no direct 
regulatory effect on these businesses, that the ability to 
assess the direct impacts of this was very difficult to do.
    We acknowledge that there is an indirect and sometimes 
speculative nature to the impacts of a regulation proposal like 
this and we sought to address those in the IRFA. The impacts on 
these aspects of society and the economy are also included in 
our draft EIS on the roadless proposal.
    Chairman Hill. Thank you very much.
    Any other members wish to ask questions of this panel? Go 
ahead, Mr. Baird.
    Mr. Baird. Thank you, Mr. Chairman.
    Just a follow up on the issue of roadless areas in 
relationship to ORVs and snowmobiles, the policy we are 
discussing today as I understand it is on stopping further 
construction of roads.
    Mr. Furnish. That is true.
    Mr. Baird. If the impact of that were to be analyzed for 
its economic impact on snowmobiles and ORVs, could one not also 
see that as a subsidy for those businesses; i.e., if the 
federal government constructs roads that are a benefit to those 
business, the federal government is subsidizing those 
businesses?
    Mr. Furnish. Oh, boy, I do not know about that. I think the 
extent of our analysis would show that for instance, let's take 
the timber industry. We tried to acknowledge that if the Forest 
Service were planning to do logging in these inventoried 
roadless areas and the lack of road construction would preclude 
that, there would be an impact on the timber industry and 
timber production.
    On the other hand, if we were seeing to accentuate the 
values of these roadless areas for other activities, it might 
actually have a benefit to activities such as snowmobiling, 
four-wheel-driving, that kind of thing.
    Mr. Baird. But to the extent that the roads do not 
currently exist, it would be hard to say it has an adverse 
impact on existing business.
    Mr. Furnish. Yes, that is our view because we are not--the 
policy does not close roads; it only precludes the construction 
of new roads. So as to the use of the existing road system, 
this policy does not affect that.
    Mr. Baird. That was the question. Thank you.
    Mr. Udall. Mr. Chairman.
    Chairman Hill. Yes, Mr. Udall.
    Mr. Udall. Thank you.
    We have recently in my home state had a devastating--well, 
a number of forest fires but a devastating forest fire in the 
largest one in the state, the Cerro Grande fire. And I recently 
took a tour of the Santa Fe watershed, which is thousands of 
acres, with the National Forest Service and they told me that 
the watershed which provides 40 percent of the water for the 
city of Santa Fe and if you had a fire like the Cerro Grande 
fire it would shut down the water treatment plant and 
effectively eliminate that water for the city, that 40 percent 
of its water supply.
    So one of the questions I think is in these areas where you 
have the urban/forest interface and you have potential 
disasters that could occur to a watershed or to just an area 
that is close to a city where you could get flooding after a 
fire and create disasters, are you dealing with this in any way 
in terms of the roadless policy? Is there any recognition of 
the problems in terms of urban/forest interface and how you are 
trying to deal with that in terms of the roadless initiative?
    Mr. Furnish. Yes, I think it is one of the reasons why the 
Forest Service is actively pursuing through our cohesive 
strategy on fire and that type of thing, that we have to 
develop other alternative means to manage vegetation beyond 
simply a timber sale contract.
    I, too, am concerned about the Santa Fe watershed and I 
know I have looked at maps of the area and I am aware that the 
headwaters of the Santa Fe watershed are also in wilderness, 
and then there is a mix.
    On the one hand, as we try to preserve as pristine 
conditions as possible as we can in municipal watersheds, we 
have to be cautious that we do not set up a situation such as 
you described, and I think that is one of the reasons we have 
this exclusion in the regulation that in the event of imminent 
threat to life and property such as might exist there, if it 
were essential that roads be constructed, there would be a 
provision to do so.
    Mr. Udall. Is the Forest Service working on a proposal or 
some kind of disaster prevention proposal that would deal with 
these kinds of forest/urban interface situations with 
watersheds, with possibilities for flooding after a fire, that 
kind of situation?
    Mr. Furnish. Yes. Well, forgive me. I just returned from 
about a three-week vacation and I know that when I left, there 
was a lot of discussion going on as a result of the Cerro 
Grande incident to look at identifying several communities 
throughout the West and I am not aware of the current status of 
that, of some special bill that would move through that would 
give the Forest Service and other federal agencies an 
opportunity to demonstrate with communities and state 
governments the proper techniques to manage vegetation in these 
urban interface areas and I am sorry I just am not aware of the 
current status of that effort. But I know that that was 
intended to address that issue.
    Mr. Udall. But you are working on some kind of proposal 
like that?
    Mr. Furnish. We are very concerned about the issue 
generally and I think that Los Alamos served as a wake-up call 
in that there are large numbers of communities that are in this 
very condition today.
    And I might add I remember when I was a kid being very 
dramatically impacted by the Deadwood fire of 1959 and it was 
on the cover of Life Magazine and others and it was again a 
very serious situation. I only use that to illustrate that this 
issue has been with us 40 years and longer and it will continue 
to be with us as long as people live in forested environments.
    Mr. Udall. And as we have population increase and we have 
growth, we are going to see more of that in the West. I do not 
think there is any doubt that you are going to see more growth 
in what I guess has been described as the urban/forest 
interface, wouldn't you say?
    Mr. Furnish. Yes, I agree with that.
    Mr. Udall. Opponents of the roadless initiative have argued 
that the initiative will effectively end logging in national 
forests because of increased costs associated with harvesting 
forests in roadless areas. Does the initiative permanently end 
all logging in the roadless areas of the national forests or is 
it possible that if there is a sharp increase in demand at some 
future date, the National Forest Service will build temporary 
roads to harvest the forests and meet the demand?
    Mr. Furnish. Well, the proposal as written today does not 
envision that. That was certainly one of the considerations 
that I think we fleshed out in the draft EIS and a lot of the 
public comment that we have received would encourage the Forest 
Service to apply a prohibition to timber harvest, as well. We 
felt we put our best proposal on the table, which was to 
consider those types of activities in the context of local 
forest planning and not to take the more dramatic measure of 
precluding timber harvest in inventoried roadless areas, as 
well.
    So I certainly would not agree with the conclusion that 
this proposal would, for all intents and purposes, end logging. 
There are lots of ways that you can do logging and I would say 
it certainly would accentuate the challenge that lies in the 
Forest Service. Where we have significant issues to deal with 
related to timber management in inventoried roadless areas, to 
be able to do that without new road construction I think is 
something we are going to have to learn how to do well.
    Mr. Udall. Have you, as part of this roadless initiative, 
have you supplied members of Congress with maps and acreage and 
a description within their districts, what you are talking 
about in terms of the breadth of this proposal?
    Mr. Furnish. Well, we have certainly endeavored to do that 
and have made maps available both at a national, state and 
local national forest level. We have also conducted briefings 
here on the Hill periodically to keep people abreast of the 
proposal, the nature of the proposal, allow for a good dialogue 
about the impacts.
    Mr. Udall. I would very much like to see the proposals for 
Northern New Mexico and have a briefing on it.
    Mr. Furnish. I noted that you wanted particular information 
on the Carson, Santa Fe and Sebola?
    Mr. Udall. Sebola, yes.
    Mr. Furnish. We will try to provide that and also for 
Congressman Baird for the Gifford Pinchot.
    Mr. Udall. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Hill. I just want to clarify this one point and I 
think in response to Mr. Udall you said that the roadless 
proposal does not, of itself, propose the decommissioning of 
any roads.
    Mr. Furnish. That is correct.
    Chairman Hill. However, the transportation plan does call 
for the decommissioning of roads.
    Mr. Furnish. I think it calls for a process to determine 
how, when and where those decisions would be made.
    Chairman Hill. The point is that when taken together, the 
transportation plan is going to provide for the decommissioning 
of roads in these inventoried roadless areas and unroaded areas 
and that is the purpose.
    I guess I have some concern about the insistence on looking 
at these as independent initiatives because they cannot; they 
really have to be taken in the context of a larger initiative. 
In fact, I think we have a memo, an internal memo from Chief 
Dombeck that talks about a strategic planof the Forest Service 
and how these individual elements are part of that comprehensive 
strategic plan.
    Mr. Furnish. What is the date on that memo?
    Chairman Hill. I will provide that for you.
    Mr. Furnish. I was just curious.
    Chairman Hill. I will provide you a copy of the letter 
before the end of the hearing.
    I guess what I would ask for you is to provide a copy of 
that strategic plan, if you would, to the Committee so that the 
Committee can look at how these issues, how these initiatives 
are related to one another.
    Mr. Furnish. Yes.
    Chairman Hill. I think that when you take them in that 
context, I think an argument certainly could be made that they 
are all interrelated and that the purposes are that they are 
interrelated, that they are not separate initiatives, and 
therefore that the Reg Flex ought to apply to the overall 
initiative, not to the individual aspects of the initiative. I 
know you do not agree with that point but I would like to get 
that into the record.
    Mr. Furnish. You are correct. I might note that your 
General Accounting Office, I believe, is conducting a review 
presently of the strategic plan and approach that the Forest 
Service is taking to management of national forests. That is 
ongoing as we speak.
    Chairman Hill. Thank you. And if there are no further 
questions, we will excuse this panel. Thank you very much for 
your testimony and I will call the second panel up.
    The second panel is Adena Cook, Blue Ribbon Coalition, 
Laura Skaer from the Northwest Mining Association, and Frank 
Gladics, director of the Independent Forest Products 
Association.
    I would like all of you to rise so that you can be sworn 
in.
    Make note that all the panelists answered in the 
affirmative.
    Ms. Cook, you may proceed.

 TESTIMONY OF ADENA COOK, BLUE RIBBON COALITION, POCATELLO, ID

    Ms. Cook. The Blue Ribbon Coalition has many members who 
are small businesses who depend on access and available 
recreation opportunities in the national forest land. The 
Clinton-Gore roadless initiative and related proposed rules 
propose a grave threat to the existence of these businesses.
    I would like to emphasize that these are programmatic rules 
and they only provide the general framework for other, site-
specific on-the-ground actions that take place. So, in and of 
themselves, they do not close roads or trails but they set the 
gears in motion so that roads and trails are at risk and can be 
closed.
    While the roadless initiative allows a full spectrum of 
recreation opportunities in roadless land, eight of the nine 
criteria assume that human activity negatively impacts the 
resource; for example, soil, water and air. This says 
presumably few or no ground-disturbing actions should occur in 
roadless areas, and this can mean directly closures.
    While the roadless initiative did claim to analyze economic 
impacts per the Small Business Regulatory Enforcement Fairness 
Act, that review was inadequate and did not analyze OHV 
recreation. OHV recreation in national forests is supported 
entirely by a national network of small businesses. These 
businesses generate significant revenue where there is nearby 
national forest land and the revenue in many states surpasses 
easily the $100 million threshold that defines a major impact.
    Here are some statistics from a few states. In Idaho, off-
highway motorcycles are popular and the motorcycle value of the 
retail marketplace in Idaho is $107 million with the off-
highway and dual purpose portion being 64 percent of that 
population. And it has 130 motorcycle sales outlets.
    Snowmobiling, it is estimated an economic impact of $151 
million and there are 55 small businesses who just sell and 
service snowmobiles and it does not take into consideration the 
tourism.
    In Montana the estimated value of the motorcycle retail 
marketplace is $75.5 million and half of that is dual-purpose 
or off-road. In 1994 in Montana a snowmobiling study was done 
that estimated $103 million economic benefit to the state.
    And in Wyoming in 1995 the Department of Agriculture for 
the state there estimated $189.4 million benefit from 
snowmobiling.
    So these are big numbers but there is a human face behind 
all of these numbers. They represent hard working families who 
work long hours to make a success of their business and serve 
the recreating public. I would like to tell you about a couple.
    Kurt's Polaris in Seeley Lake, Montana has five employees 
and annual gross sales of $2.5 million. This area has been 
impacted already by road closures and Kurt says that this is 
very bad for business. This is a small business but there are 
bigger businesses.
    In Denver, Colorado there is Fay Myers Motorcycle World. It 
employs a staff of 90 and has annual gross sales of $25 
million. Half of that is dependent on off-road sales in public 
lands. Fay Myers has enthusiastically supported organizations 
and their employees serve on the state trails committee.
    It is not just limited to western states. Midwestern states 
are also at risk. The Shawnee National Forest has a lot of 
equestrian campgrounds and there are significant economic 
impacts to those campgrounds and I would encourage the folks in 
that part to submit specifics for the record. Most western 
states and midwestern states, too, to some degree, can 
demonstrate well over $100 million in economic impact.
    Congress deserves a report on the impact of the national 
forest proposed rules on all of these small businesses and each 
rule should be analyzed and there should be a cumulative report 
prepared to show the overall impact. Thank you.
    [Ms. Cook's statement may be found in appendix.]
    Chairman Hill. Thank you, Ms. Cook.
    Ms. Skaer.

TESTIMONY OF LAURA SKAER, EXECUTIVE DIRECTOR, NORTHWEST MINING 
                    ASSOCIATION, SPOKANE, WA

    Ms. Skaer. Thank you, Mr. Chairman and members of the 
Committee.
    The Northwest Mining Association has 2,500 members in 42 
states. We represent every facet of the mining industry and we 
are actively involved in exploration and mining on national 
forest lands, especially in the West. More than 90 percent of 
our membership is small business or work for small businesses.
    Mineral activities on national forest lands account for 
between $2 and $4 billion annually and the mining industry 
provides the nation's highest paid nonsupervisory wage jobs, 
which are one of the cornerstones of western rural communities 
and lead to the creation of much nonminingsupport and service 
business in these communities. They also provide substantial state and 
local tax revenues that provide for the infrastructure.
    We became very similar with the requirements of the 
Regulatory Flexibility Act, the RFA, in 1997 when we 
successfully sued Secretary of Interior Bruce Babbitt and the 
BLM over their failure to comply with the law when they 
promulgated some illegal bonding regulations.
    The small businesses in the natural resource industries and 
the rural communities dependent on those industries need your 
help, Mr. Chairman. We believe the Forest Service is on a 
mission to turn our national forests into museum dioramas 
without natural resource production and without human visitors.
    As you mentioned, in recent months this administration has 
proposed a number of related rulemakings or policies--the 
transportation plan, the roadless area, Interior Columbia 
Basin. While we believe each one of these initiatives by itself 
is damaging to small business and the economic health of rural 
communities, taken together, their impact is devastating and 
will result in the demise of numerous small businesses and 
untold hardships on rural western resource-dependent 
communities.
    We agree with you that these are merely subparts of a 
single major action and a June 30 letter from Chief Dombeck to 
his employees confirms that these are all part of a single 
strategy. We believe they purposely divided this significant 
action into three or four subparts for the sole purpose of 
avoiding its legal mandate and responsibilities under NEPA, the 
Reg Flex Act and SBREFA to analyze those impacts.
    In each of the rulemakings that we have mentioned, the 
Forest Service takes the position that the RFA does not apply 
or that they are not directly regulating small entities or that 
it will not have a significant impact. It really appears they 
have spent more time trying to think of reasons why they do not 
have to comply with the act than honestly analyzing the impacts 
of these proposals.
    We believe they misunderstand or are consciously ignoring 
the requirements of the RFA. You see, the trigger mandating an 
IRFA is not whether the proposed rule directly regulates small 
entities. Rather, is it a rule that requires public comment 
under the Administrative Procedures Act or any other provision 
of law that will have a significant impact on small entities? 
The answer in this case is a resounding yes.
    The assertion that the roadless area rulemaking does not 
directly regulate small entities flies in the face of the plain 
language of the proposed rule. It will directly regulate small 
entities by imposing new standards and otherwise attempting to 
limit valid existing rights under the General Mining Law and 
authorized activities under relevant forest plans. Quite 
frankly, a prohibition on road-building on 43 million acres of 
national forest lands is, in fact, a prohibition on mining. 
This is a very direct regulatory impact, particularly if your 
business is exploring for minerals and mining on national 
forest land. It strains the Forest Service's credibility to say 
that a rule of this nature will have no direct regulatory 
impact.
    The proposed rule is completely silent on how the Forest 
Service will preserve access for exploration and mineral 
development activities within the roadless areas affected. They 
state that reasonable access would be provided according to 
applicable statutes but nowhere do they define or describe 
reasonable access. Modern methods of exploration require 
geologists to have motor vehicle access to potentially 
mineralized areas. They do not have any discussion of how they 
will provide that.
    We do not believe that the cost-benefit analysis nor the 
IRFA meets the letter or the intent of the RFA. It is seriously 
flawed in many respects. The overall credibility of the IRFA is 
seriously diminished by the notable absence of hard data or 
facts substantiating the many assumptions used throughout this 
and other related documents and, too, by just blatant 
omissions.
    While the proposal would make the production of some 
minerals simply uneconomic, further development of most 
leasable minerals, including goal, potash, phosphates, would 
essentially be disallowed on over 43 million acres of Forest 
Service-administered lands. When combined with 42 million acres 
of national forest wilderness areas already designated roadless 
by Congress, this proposal would essentially disallow mineral 
production on over 85 million acres of National Forest Service-
administered lands.
    Mr. Chairman and members of the Committee, we believe that 
the proposed rule, when coupled with the roads that the Forest 
Service intends to close under related initiatives, will ensure 
that there is no road to a viable economic future for the 
hundreds of small communities in or near our national forests. 
If the federal government wishes to turn its forests into 
parks, then they must correctly analyze the impact on small 
businesses.
    In 1999 the District Court in Florida had a case where NMFS 
was attempting to protect a species of shark and in holding 
that they had violated the Regulatory Flexibility Act, that 
court held that although preservation of Atlantic shark species 
is a benevolent laudatory goal, conservation does not justify 
government lawlessness.
    We believe the Forest Service must repropose the rule for 
comment after preparing an adequate IRFA that meets the 
statutory requirements of the Reg Flex Act. Thank you.
    [Ms. Skaer's statement may be found in appendix.]
    Chairman Hill. I thank you.
    Mr. Gladics, you may proceed.

 TESTIMONY OF FRANK M. GLADICS, PRESIDENT, INDEPENDENT FOREST 
                 PRODUCT ASSOCIATION, BEND, OR

    Mr. Gladics. Good morning, Mr. Chairman and members of the 
Committee. I appreciate the opportunity to be here. I represent 
about 60 percent of the small family-owned forest product 
companies in the West and upper Midwest. As a class, we 
purchase 65 percent of the Forest Service timber sales over the 
last decade. In the last two years it has been closer to 88, 89 
percent each year. That data comes from the Small Business 
Administration, who tracks Forest Service sales.
    I would tell you that the Forest Service has the ability, 
because they track on several sales whether a purchaser is 
small business or not, to understand who buys their timber and 
who does not and who would be impacted by this proposal.
    I am here today because I believe the agency has concocted 
a scheme through a series of four regulations that would 
devastate my industry and I believe they are purposely trying 
to avoid having to do a regulatory flexibility analysis so that 
the economic truth comes onto the table so that policymakers 
like yourself can make a reasonable decision about the 
environmental portion of this versus the economic portion. In 
fact, I do not really want to get into an argument about 
whether the rule is good or bad, but I think procedurally they 
are flawed and they should do something about it.
    They have four components of this scheme: a GPRA strategic 
plan proposal, which directs the agency to move away from 
multiple use. That came out last fall. Then a National Forest 
Management Forest Planning Act, which directs ecosystem 
restoration to pre-Europeansettlement conditions be the first 
priority of the agency. Well, right there it tells me that they are 
going to move away from access to the forests.
    The transportation and road rule directs the road closures 
of all roads the agency cannot afford to maintain, plus the 
roads they do not want to keep open.
    And then finally, the roadless proposal, which is two 
components: the RARE II areas, which they say there will be no 
road construction or reconstruction, and then the unroaded 
portions of the forests that they will deal with in the forest 
plans.
    When you take all those four in total, the companies I 
represent can only conclude that there will be little or no 
timber harvesting on the National Forest System when that 
package is put in place and we believe that because of what we 
have read in the roadless EIS and Appendix A on page 20, which 
said the procedural provisions would be applied to 54 million 
acres of inventoried roadless area, not the 43 that we banter 
about, as well as up to 95 million acres of National Forest 
System land. Well, folks, that is 77 percent of the National 
Forest System. That is a huge impact.
    If you look on Table 1 of my written testimony I have the 
data on how much timber small businesses purchased. I also made 
an attempt, using the Forest Service TSPIRS report, which is 
their economic report of what their timber sale program 
produces, to see what would happen if you lost half the 
suitable base, which is where timber can be harvested in 
national forests. And it shows that we would fall to a total 
economic activity of $600,000 from nearly $4.8 billion in 1991. 
That is a lot more than $100 million a year.
    The problem with the assessment I see from the Forest 
Service is first of all, they are not using their forest plans 
to assess this proposal against. Forest plans say we would 
harvest 7.35 billion boardfeet a year; they have been 
harvesting 3 or less. They are trying to compare the impact of 
this proposal against what they did last year and the year 
before; we believe they should do it against their forest plan.
    And Mr. Udall, I do have the data on how much of the 
roadless areas are in suitable base. This is from a Forest 
Service report from 1999, National Forest System Roads and Use 
Report, which was a draft report on the Internet. There are 
about 62 million acres that were RARE II originally. Of that, 
there are 9 million acres of inventoried roadless area that was 
in the suitable base as of 1995. So that is 25 percent of the 
RARE II areas that were used to help support the forest plans. 
If you lose that, you have to rewrite your forest plans; you 
reduce the amount of timber you are going to sell. That is a 
problem.
    I would like to throw up just a couple of maps here to help 
you understand what that means, and I will use just two and 
save one for another speaker that is on the next panel.
    In Montana the Forest Service controls 73 percent of the 
timber that small businesses depend on. That map is their 
roadless maps that you have seen. It has wilderness in green 
hatch. Any of the brown or tan areas are RARE II areas. The 
green dots are small businesses. The orange dots are large 
businesses.
    And if you look at that, the policy, just the RARE II part 
of the policy, would put 56 percent of the national forest 
lands in Montana off-limits.
    Now, if the EIS is telling me there is another 95 million 
acres of National Forest System land that could be impacted, I 
have to conclude that a lot of that is in suitable base. And my 
estimation is when we are done with those four proposals, if 
they are all implemented, we will be down to about 10 percent 
of the forest land base in Montana that would be open to timber 
harvesting.
    Now, look at where some of those green dots are and how 
much land is encumbered just by RARE II and tell me that there 
are companies who are not going to go out of business, yet the 
Forest Service has steadfastly refused to admit that. They say 
all minor impacts. Well, I have to tell you to a small 
community that has one sawmill in it, it is not a minor impact.
    If you go to Wyoming you will see much the same thing, only 
there are not as many large businesses in Wyoming. Look at the 
Big Horn, which is in the center of the state there. It is all 
wilderness and RARE II and then the Shoshone, which is over by 
the national park, Yellowstone. Those forests are going to go 
out of the timber business and there are three mills there that 
disappear. They will not have a timber supply source. I think 
that the Forest Service owes it to the local leadership, 
political leadership, to address that.
    And the third thing that I wanted to point out to you today 
that I am very upset with is the effect on county government. 
Counties receive 25 percent of the gross receipts. Congress is 
working on a bill to try to make them whole--S. 1608 and H.R. 
2389. The Forest Service in their EIS said, ``We do not have to 
deal with this because there is a bill in Congress.'' Well, 
that bill has not passed and this administration has basically 
put every roadblock in front of that bill that they could.
    So on one hand, they are saying, ``Oh, do not worry about 
it; Congress is going to do it.'' On the other, they are 
saying, ``We do not have to assess the impact of that.'' That 
is fundamentally bad public policy and quite frankly, I think 
it is immoral for the agency to do that. And we see that in 
this EIS, step after step.
    The agency has not wanted to tell us what the impacts are 
and I think it is because they do not have the professional 
integrity right now to do that. I have talked to people in the 
Forest Service and I have said, ``You know your forest plans 
say 7 billion boardfeet'' and the answer is, ``You know we 
cannot give that assessment because the impacts would be too 
great and would make us do many more steps in this process.'' 
That is bad.
    The SBA--we have gone to the Office of Advocacy. We have 
asked them for help. We have two conference calls. The first 
one was very good. The second one, we got told, ``We do not 
think there is a problem here.'' And the absence of the SBA 
Office of Advocacy at this hearing tells me something. I do not 
think that either of these agencies want to truly let the 
policymakers understand what the impacts of these proposals 
are, and I think that is bad public policy and I request that 
both my oral and written be put into the record of this 
hearing.
    Chairman Hill. Without objection.
    [Mr. Gladics' statement may be found in appendix.]
    Chairman Hill. I recognize the gentlelady from the Virgin 
Islands.
    Ms. Christian-Christensen. I do not think I have any 
questions, Mr. Chairman. I just want to thank the panelists for 
coming and say that we will, as both Committees look at this 
issue before us, we will certainly take into consideration the 
impacts that you have outlined for us and that we will work to 
ensure that at the end, we have a policy that addresses both 
the environmental as well as the economic impact.
    Chairman Hill. The gentleman from South Dakota, do you have 
any questions?
    Mr. Thune. I thank the chairman for holding the hearing in 
the first place and do not have a question per se at the 
moment, although I would reserve the opportunity to ask one at 
a later date. But I just appreciate the fact that you are 
homing in on this aspect of the roadless policy because I think 
it is one that oftentimes gets overlooked and I know it is a 
major concern in my state of South Dakota in the Black Hills 
and an issue which we have dealt with extensively.
    And my own view is, and I would sort of concur with what 
Mr. Gladics said here, that it would appear to be that this is 
a policy that ultimately the hope is we will end with zero 
harvest and thatis something that we cannot certainly accept in 
our state. We have a significant number of jobs that would be 
impacted--small employers, people who are desperately trying to make a 
living--and have, in the context of a multiple use management plan, 
worked vigorously to come up with a balanced approach to all the 
various issues that affect the resource there.
    My frustration has been throughout this process that we do 
not have the local input that is necessary and these edicts 
continue to come down from Washington, in contradiction in a 
lot of respects to the will and desire of the people who are 
really trying to be good stewards of the resources there.
    So it is very interesting for me to hear from you all about 
the specific effects on small businesses. That is an aspect of 
this that I think clearly we need to continue to pursue and I 
appreciate the chairman for homing in on that and would hope 
that as this process continues to move forward that some of the 
things that have been suggested here will be pursued. I think 
the Reg Flex Act and this policy's impact on small businesses 
needs to be further pursued and I would hope that before it is 
all said and done, we would get a chance to do that.
    I thank the chairman.
    Chairman Hill. I thank the gentleman.
    Mr. Phelps.
    Mr. Phelps. Thank you, Mr. Chairman, also for holding this 
hearing--very valuable for all of us.
    Ms. Cook, as we have spoken before, the Shawnee National 
Forest is in my district, Southern Illinois, and even though it 
seems that the U.S. Forest Service has indicated that even 
though timber is pretty much idle there--timber production has 
been for the last few years--the emphasis, I think they tried 
to assure to the communities, would be on multi-use 
recreational items. I think we have even seen some type of 
hindrance to the development of potential there, with the 
roadless initiative even coming into play.
    I have witnessed the Forest Service making decisions even 
on county roads and also on private ownership roads within the 
national forests----
    Ms. Cook. That is correct.
    Mr. Phelps. Which is a disadvantage and it is unfortunate 
that we have private ownership within the forest, which 
complicates all kinds of policies that come into play.
    My question--maybe I should have asked it to the panel that 
just left--in your estimation, have you had satisfactory 
response from the U.S. Forest Service when they put roadblocks 
up on private roads or county roads that seem to be at least 
not proven yet whose jurisdiction? The county says it has 
always been a county road, the state does not lay claim, but 
yet the Forest Service has authority over shutting the road 
down, even before the roadless initiative is even implemented.
    Ms. Cook. Thanks for asking the question. This has been 
problematic in many of the counties in the West where it has 
been advantageous for county roads to remain open and 
historically they have been public roads and the Forest Service 
has gone in and usurped, as we claim, the county jurisdiction 
and closed those roads.
    And it is not just limited to the West, as you indicated. 
In fact, Pope County, Illinois is suing the Forest Service over 
jurisdiction of county roads in Pope County and many county 
roads that you would term trails have been closed to various 
kinds of recreation and there is a great economic impact.
    The southern part of Illinois, moving from resource-based 
timber harvest to a recreation base for their economy, supports 
what we call equestrian campgrounds. These campgrounds cater to 
horse users who come in and camp and then they have access to 
the trails in the national forests for the horses. And these 
campground owners want to maintain the trails, they want to be 
good stewards of the land, but they have been precluded from 
doing so by the Forest Service, who has said, ``No, no, you 
cannot go in and maintain those trails because we have not 
designated them and put them on the system; we have to go 
through that paperwork first.''
    And now this roadless thing comes down the pike and they 
said, ``No, no, we cannot have those trails on the system until 
the roadless inventory is done and we can see that this is 
appropriate.''
    So I do not know the numbers for southern Illinois but I 
know those numbers can be provided to the Committee and I will 
urge those folks to do so.
    Mr. Phelps. Thank you. That is the frustration I am dealing 
with. Pope County is--there are 102 counties in Illinois and 
they have more county road miles than any other county, with 
less property tax resources to address their problems, and yet 
the authority is being demonstrated by the U.S. Forest Service 
at a time when recreation supposedly was to have a little more 
emphasis with development, with hands-on from all sides, multi-
use--the 1992 management plan, which stated that. So I just 
want to state that for the record. Thanks for your response.
    Mr. Gladics. Mr. Phelps, may I spend just a second? The 
Forest Service recreation use shows about 859 million 
recreation visits a year. Two percent of those are into 
wilderness where we have no road. We have a policy here that is 
proposing essentially to turn at least 59 million acres, the 
RARE II areas, into wilderness-like recreation areas, where you 
will not have roads. Another 95 million acres could potentially 
be impact, according to the EIS.
    As your counties see that recreation use gravitate away 
from the forest onto their road system because those 
recreationists are going to go somewhere and in a forest like 
the Shawnee with all the in-holdings, those counties are going 
to see huge increases in their road maintenance costs because 
the Forest Service will push those people away from the 
forests. Most recreation is driving for pleasure and if 88 
percent is related to a vehicle somehow, this policy has some 
real not only economic impact but environmental impacts that we 
believe people ought to look at. And we think we ought to be 
talking about those before the draft is done. The draft comes 
due next week and there are lots of questions that the agency 
has not been able to answer for people.
    Mr. Phelps. Thank you. Good point.
    Chairman Hill. Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman.
    Thank you, members of the panel, for coming and we very 
much appreciate having you here. I guess my first question here 
is for all of you, if you wish to comment.
    The Multiple Use Sustained Yield Act authorizes the 
multiple use of the national forests. Multiple use refers to 
timber cutting, as well as recreational uses. The act also 
states that the combination of these uses should not 
necessarily be one that gives the greatest dollar return.
    My question is supporters of the roadless policy argue that 
road construction for timber cutting has resulted in the rapid 
loss of open spaces. Could it be argued that for years, the 
timber industry has taken precedence in national forest use 
over recreational uses and that this contradicts the multiple 
use doctrine and it is time to swing the pendulum over to 
recreational uses and, in effect, find a balance, a better 
balance between the two?
    Mr. Gladics. I will take a shot at that if you would let 
me. I think, because of the tenor of the debate that you have 
heard over the last decade, you could believe that timber is 
the primary thing that occurs on national forests. But, in 
fact, if you go back through their forest plans and you look at 
those, you will find that timber is a very small component of 
what happens on theNational Forest System. It just happens to 
be the most controversial component.
    And what we are seeing now in the swing of the pendulum, 
which you suggest might be worthwhile, is we are seeing a swing 
by this agency in this cluster of four rules to do away with 
multiple use. The GPRA plan basically says ecosystem 
restoration will be the prime directive of the Forest Service. 
The NFMA forest planning regs say the same thing: we are going 
to restore ecosystems to pre-European settlement conditions.
    Now, we probably all have a different image of what that 
means but I would portend to you that it does not mean roads 
and it does not mean recreation and it does not mean fishing 
and hunting. It means large tracts of land set aside where 
humans can walk in maybe or ride a horse in.
    Now if you look at the total percent of acres harvested in 
the RARE II areas over the last 20 years, it has been like 2 
percent of what was planned to be managed when they planned for 
25 percent of the timber sale program to come out of those RARE 
II areas.
    So I would suggest to you that the move away from multiple 
use may more dramatically affect the nontimber users than the 
timber users. And when you think about that in terms of fire 
and forest health, I defy you to show me that recreationists 
like to go use fire-burned areas for recreation.
    I have fought fire for the Forest Service. I worked in the 
Forest Service for eight years. When you have a road system, 
you can get in to fight the fires. When you do not have a road 
system, you either wait for the fire to come out of that 
unroaded area or you build a road in with a Cat saying it is 
fire line. You do not do any environmental impact statement 
when you start building fire line with a bulldozer. You say 
there is the fire, here is where we can cut it off, and you get 
much more environmental impact than when you carefully design a 
road system.
    If you look at other countries of the world's forests, they 
have three and four times the road density in their forests to 
manage their forests than our country does. I know 380,000 
miles seem like a lot of miles of road but take the time to 
compare it to some of the European forests, which people think 
are fairly well managed, people think provide a variety of 
outputs, and you will find four or five miles of road per 
square mile of forest. In our country, our system has about 1.5 
or 6 miles per square mile of forest.
    And it is just a question of whether you believe that you 
can manage better than these natural events or not, and I think 
the fires in Arizona, New Mexico and Colorado this summer show 
us that we have some impacts that we had better figure out how 
to deal with. And we are throwing one of the tools out of the 
toolbox by saying we do not want multiple use and we do not 
want timber harvesting in our national forests.
    Ms. Skaer. Mr. Udall, I would concur with Mr. Gladics that 
these initiatives are pushing us away from multiple use. One 
important multiple use that you did not mention is mineral 
production and mineral exploration in the forests.
    And I think that all of this is pretty synergetic with 
recreation because I think as Ms. Cook could attest, much of 
the recreation that takes place in our national forests 
utilizes logging roads or roads that were primarily for logging 
or old mining roads or current mining roads. Many hikers, many 
hunters, many fishermen will use these roads to drive to a 
location and then hike to their favorite hunting spot or their 
favorite fishing hole.
    I think you are going to find there are a lot of people who 
are looking at this and saying, ``Oh, this is going to be less 
roads, less environmental impact, more area for me to enjoy 
this pristine wilderness area.'' People are going to wake up 
and find that the combination of these two policies are going 
to mean that instead of being able to drive into a forest and 
then be able to hike or to hunt, they are going to find out 
that they now have a 15- or 20-mile hike just to get to the 
point where they used to start their hike.
    So I think that the whole multiple use concept is being 
violated by these proposals and that we--you know, multiple use 
does not mean all uses at the same time. It means that the 
forests are available to a multitude of uses.
    Multiple use management has been congressionally mandated 
and if public policy is going to move away from multiple use 
management, that is for the Congress of the United States to 
decide, not for an administrative agency to do on a de facto 
basis.
    Ms. Cook. I really appreciate the question and it is very 
appropriate. How does this fit in with multiple use in National 
Forest Management Act? But my response is at what level of 
planning should this balance be established?
    We are looking now at a level of planning where the balance 
is way above whatever NFMA intended. I submit that the balance 
needs to be established at the local forest level through the 
local forest planning process. You do your analysis of the 
management situation and your landscape analysis. You look at 
where you are now on an individual forest basis and you go 
through and you identify areas that are roadless and apply the 
standards that now exist toward protecting these areas and you 
go on and identify other areas for commodities and so on, and 
that is at the level that you balance commodity use and 
recreation use and all the other competing uses and values that 
we have in our public lands, not at this Washington, D.C. top-
down level.
    Mr. Udall. I appreciate your answers.
    Thank you, Mr. Chairman.
    Chairman Hill. Mr. Baird.
    Mr. Baird. Thank you, Mr. Chairman.
    Mr. Gladics, as I understand IFPA, these are significantly 
folks who are involved in--they are not the major timber 
companies; they are not folks who have large private holdings 
of land. So a significant portion of the timber that they are 
able to harvest comes from federal----
    Mr. Gladics. Absolutely. I have 55 members. I have two 
members that own more than 10,000 acres of land. One of them 
owns about 80,000 acres; the other owns about 30,000 acres.
    Of that membership, up until 1995, I would have sat here 
and said they are wholly dependent on federal timber. From 1995 
until now, they have scratched to find whatever timber sources 
are available anywhere they could. And yes, I have some that 
were within the president's forest plan that were impacted, but 
most of my membership exists outside the spotted owl forests 
and most of them have watched the federal timber programs 
dwindle to the point where they are on the open market trying 
to survive as small businesses in places where their 
competitors control the timber.
    So if we do not have federal timber, it does not take a 
total loss of their volume to drive them out of business. If 
you are running a mill and you only have 80 percent of what you 
need to run one shift, you will not be economically viable if 
you lose that 20 percent or 30 percent you are getting from the 
federal government.
    Now, I still have some members that are 80-90 percent 
federally dependent and I have members in the states, the 
intermountain states, that are going to be devastated by this.
    And I have to tell you it is very difficult for me to sit 
here and watch the Forest Service say, ``Oh, it is 
inconsequential; it is only a couple of mills'' when it is 
mills in communities that have been there for four and five 
generations, who have been good neighbors with the agency and 
good neighbors in their communities and good community 
citizens, to watch the folks here in D.C. just go, ``They don't 
matter.'' It gets a visceral reaction from me. I do not have 
any respectfor the Forest Service leadership right now to blow 
by those people without telling you, the political thought leaders, 
what this policy really means. And I am very disappointed that the SBA, 
who is supposed to advocate for small business, does not seem to be 
anywhere in this game right now. Even though we have asked them to help 
us on this issue, they got called off. They went and met with the 
Forest Service and the second conference call we had, ``This not a 
problem.'' And I just said, ``Well, we think it is going to drive a lot 
of our folks out of business.''
    Mr. Baird. Certainly in my district and elsewhere that I 
have seen these mills are often the primary employer in an area 
and really almost the sole employer. If they go, the rest of 
the small businesses that provide----
    Mr. Gladics. Absolutely. These mills generally got in place 
many times because the agency encouraged them to be there. The 
agency said, ``You have a mill here; wouldn't you put a mill in 
this town because we are going to sell timber forever.'' And I 
think you will hear from Mr. Steed on the next panel that up 
until three years ago, four years ago, they were begging people 
to build mills in his area and he went to a huge risk to build 
that mill, to have this agency now change their mind.
    And I believe that the policymakers ought to understand 
what those impacts are and ought to have a rational discussion 
of how do you deal with that?
    Mr. Baird. For those of us who are concerned about 
protecting the remaining old growth that we have, concerned 
about ecosystem integrity and things, and simultaneously 
concerned about the small mill owners and the rural communities 
that are so dependent on them, do you have any thoughts about 
what the solution here is?
    Mr. Gladics. Well, I know some of my friends from the big 
business community that still do buy federal timber may be 
upset with this concept but at the beginning of this 
administration when the president had his meeting out in 
Portland, we proposed to them that yes, you are going to go 
from 5 billion down to 1 or 2; if you do that, it ought to be 
focused at small business.
    Now up at this point, small business, depending on what 
forest you are on, gets between 20 and 80 percent and there is 
always 20 percent guaranteed to big business.
    Mr. Baird. Say that again. There is a 20 percent guarantee 
to big business?
    Mr. Gladics. It is open. Twenty percent that is open, that 
anybody can bid on.
    Mr. Baird. I see.
    Mr. Gladics. If you modify that without addressing are you 
going to sell timber or not, you have not done anything to help 
small business. We could get 100 percent of nothing and not be 
here. And right now, that is the way it is heading on many 
forests, is they are sitting there right now because they do 
not know what this policy is going to be, they are not going to 
take any risks, they are not selling any sales. And for many of 
my mills, this year or next, we are out of business. You do not 
have to cut that flow off very long before you destroy a 
business.
    And that has been what is so frustrating about this 
process. We have had this roadless moratorium for two years, 18 
months, and now we are going to go into another moratorium on 
95 million acres that we have to wait till the forest plan to 
find out whether they are going to sell timber in those 
``unroaded areas.''
    Well, during that time period it is the small businesses 
that are destroyed. And I believe if you look at Region III, 
New Mexico and Arizona, you now have people even in the 
environmental community saying, ``Gee, maybe we need some 
sawmills down here to deal with these overly dense forests.''
    Well, it is awfully hard to convince somebody to invest 
money after you just ran them out of business to come back. And 
if I had anything, I would look at some of these states that 
have a huge percent in that category and I would say, ``We 
ain't going to do them all; it is not going to be all the RARE 
II areas. It is not going to be those unroaded areas.''
    The thing that worries me right now is the vice president 
has said if he is elected, there will be no timber harvesting 
in those areas. Well, that sounds an awful lot like the 
decision has been made to me and a lot like this process may be 
meaningless.
    The president's press secretary about a week ago, a week 
and a half ago, said that they have already set these away from 
harvesting.
    Mr. Baird. The chairman is----
    Mr. Gladics. It is hard for us to deal with.
    Mr. Baird. Thank you very much. I appreciate that. I would 
like to follow up outside, not here but at some point chat with 
you about some ways we might be able to make this----
    Mr. Gladics. Happy to talk with you.
    Chairman Hill. Mr. Baird, I think you have asked the most 
pertinent question that has probably been asked and I think if 
you wait till the next panel, I think there are some 
suggestions on where we go.
    Mr. Baird. I will not be able to.
    Chairman Hill. The one thing that would be a big mistake is 
to make a decision now to dramatically restrict the access to 
this resource before we decide what the appropriate way to 
manage it is, and that is what my objection is to this 
initiative.
    I do not advocate building another mile of road anywhere, 
and I am not opposed to removal of roads if that is the 
appropriate thing to do for the forest. But to make a decision 
to basically eliminate the access and basically, in concert 
with that, to make the decision that you are not going to try 
to actively manage the problem is absolutely the wrong 
decision.
    I just have a couple of questions and then we will move on 
to the other panel.
    Mr. Gladics, we have seen a dramatic increase in imports 
from Canada in wood products, haven't we?
    Mr. Gladics. Yes.
    Chairman Hill. And why is that?
    Mr. Gladics. That is because you have seen a dramatic 
decrease in the amount of timber lumber capacity mills in this 
country and the Canadians essentially are 95 percent public 
timber and they subsidize their mills by selling them stumpage 
at about a third of the open market rate on this side of the 
border and I can provide you that data. They are winning market 
share because we are not managing our lands.
    Chairman Hill. Which is an adverse impact on our balance of 
trade?
    Mr. Gladics. Yes.
    Chairman Hill. And has impact on employment and mills in 
Montana.
    Mr. Gladics. Absolutely. Not only Montana, sir. That 
ripples all the way down through the intermountain states and 
the West Coast states.
    Chairman Hill. Montana is a net importer today of wood 
products.
    Mr. Gladics. Yes.
    Chairman Hill. Which is hard to believe. The reason I point 
that out is that in their initiative analysis, they did not do 
any analysis of the impacts from a trade perspective, did they?
    Mr. Gladics. No.
    Chairman Hill. They say it is going to cost 535 jobs. Do 
you think that that is an even reasonable estimate?
    Mr. Gladics. I can come up with 535 jobs in the state of 
Utah alone, using their data, sir.
    Chairman Hill. In the draft EIS it says the Forest Service 
basically characterizes forest workers as uneducated, unstable 
and unmotivated, easily moved to other segments of the economy. 
In fact, if I quote, it says, ``Many people enter the wood 
products industry because it provides opportunities to earn 
high wages without having a high level of education. If 
equivalent jobs were readily available, these individuals would 
be happy to take advantage of them.''
    How would you characterize that?
    Mr. Gladics. As one of the single most disrespectful 
statements I have seen in a federal document. I think if you 
had substituted the words ``black'' or ``Hispanic,'' this 
Congress would have run whoever wrote that out of town fairly 
quickly. They have no regard for rural Americans, sir.
    Chairman Hill. Well, I know people who work in the forest 
and they love the job of working in the forest. I know some of 
them who have college degrees, masters degrees, and they choose 
it because they love it. They love the outdoors and they love 
being part of it.
    Mr. Gladics. In my membership, I think I have two companies 
out of 55 that are not multi-generationally managed and most of 
those sons and daughters who came back to the business went to 
college, got degrees in something other than forestry but came 
back because the family business and that community meant so 
much to them.
    The treatment they are receiving by the Forest Service is 
just reprehensible.
    Chairman Hill. I read that to say another thing, too, and 
that is they have already made the decision that these jobs are 
not going to be there and they are trying to say that they do 
not matter.
    The DEIS goes on to say that ``Timber-dependent communities 
are the least prosperous.'' Would you say that is true?
    Mr. Gladics. No. I would say that if you look at it in 
terms of wages per person, dollars per hour that they make, and 
compare that to a recreation-based or a service-based 
community, you would find that the timber industry jobs and the 
natural resource jobs tend to pay a higher dollar per hour 
amount by about a third.
    Yes, these are small communities. There is no doubt about 
it. And there are not a lot of services and amenities that you 
find in a university town, for instance, but they are good 
communities and they are good people.
    Chairman Hill. Ms. Cook, you said that, and I want to go 
back to this, that this plan would theoretically, at least, 
affect over 70 percent of the roads in the national forests. Is 
that correct?
    Ms. Cook. That is correct.
    Chairman Hill. That means that the Forest Service has 
already indicated that 95 percent of the use of these roads is 
other than for timber purposes.
    Ms. Cook. That is right.
    Chairman Hill. Recreation purposes.
    Ms. Cook. And that is our great concern, that the major 
impact of these proposals is on recreation and public access.
    Chairman Hill. That is exactly right.
    I just want to ask you each one last question and then I 
will excuse the panel. I will start with you, Ms. Cook. The 
industries that you are talking about--snowmobiling, off-road 
vehicles, those recreationalists--will this initiative have 
more than $100 million impact on those industries, in your 
opinion, tourism?
    Ms. Cook. Absolutely. I am not an expert in this and I did 
not have very much documentation to support my testimony but 
what I did have was accurate and what I did have was solid. And 
it just concerns snowmobiling and it just concerns off-road 
motorcycling and it did not concern driving for pleasure or 
ATVs, which is a growing segment of the economy. And in each 
case just running simple numbers through came up with over $100 
million in each western state.
    Chairman Hill. In each state?
    Ms. Cook. In each state. So we are at something of a 
quandary here that we need more accurate documentation on the 
effect of federal proposals on these businesses.
    And I would like to say one additional thing. That is small 
businesses are the backbone of this country and a small 
businessman--some of you maybe come from a small business 
background--have a lot in common with each other, whether they 
operate out of a city or a small town or are resource-based, 
and they are hard working people and they share a commitment to 
their chosen line of business that goes beyond their choice of 
business. They do not just work at a job. They put in 12-, 15-
hour days, 80-hour weeks and they really believe in what they 
are doing.
    Frank alluded to that with regard to the timber community 
and I can allude to that with regard to the recreation 
community. These people like to get out and enjoy the public 
lands and that is why they are in the business that they are 
and they work at it 80 hours a week.
    Chairman Hill. Thank you, Ms. Cook.
    Ms. Skaer, in your judgment would the impact of this 
initiative be more than $100 million on the industry that you 
represent?
    Ms. Skaer. Mr. Chairman, there is no question that that is 
the case. In fact, if you take a look at what I characterize as 
a rather sloppily prepared initial regulatory flexibility 
analysis, they tried to make an estimate based on likely 
potential discoveries in the future within these roadless areas 
and the Forest Service estimates that over $400 billion of 
gold, silver, lead and zinc would be placed off-limits----
    Chairman Hill. $400 billion?
    Ms. Skaer. Yes. This is in the cost-benefit analysis and 
the initial regulatory flexibility analysis that the Forest 
Service published and then concludes that there is no 
significant impact.
    And then if you look at----
    Chairman Hill. I guess around here $400 billion is not a 
big impact. Excuse me for interrupting.
    Ms. Skaer. To small mining companies and individual 
geologists who depend on access to these lands to explore for 
these mineral deposits, that is fairly significant.
    The food chain in the U.S. mining industry today is that 
you have a few major companies that actually run the mines and 
do the mining but the development of that is by small 
individual geologists, two or three company geologists who go 
up.
    With coal, in just Montana, North Dakota and Wyoming they 
estimate $6.6 trillion of coal resources could be impacted by 
this proposal. I think both of those numbers are in excess of 
$100 million.
    Chairman Hill. Mr. Gladics.
    Mr. Gladics. Absolutely. If you look at the EIS and it says 
54 million plus a potential other 95 million acres, you have to 
conclude that the timber program will disappear. Right now it 
is producing about $4.2 billion worth of employment activity. 
There is no way you cannot assume $100 million.
    Chairman Hill. Let me just ask one last question and then 
we are going to have to recess because that means that we have 
votes, and there is going to be a series of votes. I apologize 
to the next panel.
    If the administration and the SBA were willing to sit down 
and try to do a real analysis would you commit to working with 
them to try to help them obtain the information that they have 
not been able to obtain in order to do an appropriate analysis? 
And I would ask each one of you if you would answer that for 
the record. Ms. Cook.
    Ms. Cook. Absolutely. I would be more than happy to do so 
and I would put the officials in touch with all kinds of people 
with better information than I have right now--industry people, 
state people, and so on.
    Ms. Skaer. We would welcome the opportunity.
    Mr. Gladics. Absolutely.
    Chairman Hill. Mr. Thune, did you have a question that you 
wanted to ask this panel? Go ahead.
    Mr. Thune. I do not want to make anybody late for votes, 
Mr. Chairman, but let me just say again, and I would echo what 
the chairman said about the draft EIS and its characterization 
of loggers. I found that to be--I was shocked. I found it to be 
absolutely reckless, at a minimum, and hostile, worst case, to 
a lot of hard working people in rural areas of this country.
    But let me, if I might, Mr. Gladics, understand that you do 
represent some folks in South Dakota and I noticed you did an 
assessment of impact on Montana, Wyoming, other places. Have 
you done any analysis of how this would impact the Black Hills?
    Mr. Gladics. The RARE II portion for the Black Hills is a 
very small portion because that forest does not have much RARE 
II land, although they have an existing timber sale, which will 
be stopped by this policy, which is a 23 million boardfoot sale 
which Pope & Talbott will lose, which is no small amount of 
timber for a company like that.
    The real question for South Dakota comes in the unroaded 
areas and what portion of that will the Forest Service put off-
limits in the future and that is where we would like to see 
maps that they have not produced. Where are those areas? What 
is the likelihood? What is the impact of that?
    If you put 77 percent of the National Forest System off-
limits, and that is an average for each forest, the Black Hills 
will cease to have a timber industry. You will have one small 
mill left. Probably somebody like Lindy's down in Custer would 
survive. Your two major mills, the Nyman's Mill and Pope & 
Talbott cannot survive in that forest if 70 percent of the 
forest is off-limits.
    Mr. Thune. That is about, in my state, the numbers that I 
have seen, about 1,200 jobs, which is, in a state like South 
Dakota, that is the real deal.
    But I would just say that, Mr. Chairman, in response to 
your previous line of questioning, I am disappointed to hear 
that there have been overtures made toward SBA and that you are 
getting a blind eye turned toward the impact of this and I 
would suggest that this panel get in touch with the Office of 
Advocacy and insist upon finding out what they are willing to 
do to do an analysis here.
    And my understanding is you have already requested some 
information about any exchange of information that has already 
occurred between USDA and SBA but as the primary advocate for 
small businesses in this country, we are talking about a policy 
which clearly is going to have a dramatic impact on a number of 
small businesses in your state and in my state and many other 
states that members represent here and it is a concern to a 
good number of people. I would hope that we----
    Mr. Gladics. We would like to see that on all four of these 
rules. It is not just the roadless rule that they have not 
produced economic----
    Chairman Hill. We do have to vote. I would just comment 
that we did not learn until Friday that the Small Business 
Administration would not be at this hearing. We had every 
expectation they would be here and that we could ask them some 
of the questions that we all wanted to. We intend to ask 
questions in writing. If the gentleman has some questions he 
would like to be included, he can do that.
    I agree with the comments that we really need to look at 
these in the greater context.
    We have 10 minutes left on this vote. It is just one vote. 
We will return here; we will be back here by 20 after and we 
will have the third panel.
    I want to thank these panelists for appearing. Your 
testimony has been very valuable. Your comments are very 
valuable and we appreciate your input. Thank you very much.
    The Committee will be in recess until 20 after.
    [Recess.]
    Chairman Hill. We will call the hearing back to order and 
call our final panelists forward. Cheryl Larson; is Cheryl 
here? Stephen Steed, Bruce Vincent, Carl Fiedler and Chuck 
Keegan. Let me ask that you stand and take the oath.
    Let the record show that all the panelists answered in the 
affirmative.
    We will start with you, Cheryl.

      TESTIMONY OF CHERYL LARSON, L.T. LOGGING, EUREKA, MT

    Ms. Larson. Mr. Chairman and members of the Committee, I 
grew up in the Tobacco Valley of Northwestern Montana. For 100 
years members of my family and community have farmed, ranched 
and logged the valleys, hills and mountains of our area, yet 
strangely enough, our air, water and scenic beauty are still 
touted as some of the most pristine of the continental United 
States. Our small towns of Rexford, Eureka, Fortine and Trego 
are a microcosm of economic interdependence, much like the 
interdependence we see in the natural world around us.
    Seventy-five percent of the land base in our county is 
taken up by the Kootenai National Forest, so policies which 
direct its management have an enormous impact not only on my 
small business of L.T. Logging but also on all of our small 
businesses, schools, roads, and other county services.
    Today we are literally besieged by a flood of federal 
policies reflecting a basic change in the way our national 
forests are managed, or not managed, as the case may be. The 
president's roadless initiative is the epitome of all these 
policies put together. What we object to most is not the 
prohibition of new road-building but the way it, along with the 
many other proposals and rule changes, restricts our local 
managers from doing their jobs. We are also insulted by the 
language with which it is written, language which we feel is 
biased against the work we do, reveals the bigotry the planners 
feel toward us as a people, and appears to be an invitation to 
environmental groups to litigate active forest management out 
of existence.
    We in the West are fed up with being chastised for working 
hard to provide the public with the products that are taken so 
very much for granted. The planners have not even paid lip 
service to the value of these products and therefore have 
grossly misjudged the costs and impacts to our businesses, 
communities and the nation at large.
    In our town we are being forced to witness logs being 
shipped 500 miles down out of Canada to supply our local mill 
while our loggers go without work and our forests are busy 
laying up kindling for the next well placed lightening strike, 
the next careless camper or a Forest Service employee's futile 
attempt to fight fire with fire.
    We are not fooled by the crafty language in the roadless 
DEIS and proposed rule change. Like a wolf in sheep's clothing, 
it appears harmless enough but spells out the death knell for 
hundreds of small towns across the West. How long will you here 
in Washington sit back and watch western communities burn to 
the ground while the social, economic and cultural fabric of 
our lives are being torn asunder?
    The list is growing longer every day. The homes and 
livelihoods of rural peoples of California, Oregon, Washington, 
New Mexico, Arizona, Nevada, Utah, Colorado, Wyoming, Idaho and 
Montana have become the sacrificial lambs in the vain, 
unrealistic dream of recapturing the past.
    We can no longer endure the proclamations of an 
administration that is bent on redeeming its image for the 
history books at the expense of our children's futures. My sons 
attend school in buildings that are woefully deteriorated. The 
drastic reduction of PILT funds in recent years prevents us 
from refurbishing them or making them accessible, in compliance 
with the unfunded mandates of the Americans with Disabilities 
Act.
    The further cuts this policy dictates will also jeopardize 
our ability to attract quality teachers. How sadly ironic that 
one of those buildings bears the name Roosevelt, whose aged 
facade and inadequate facilities bears silent witness against 
President Clinton's latest folly.
    This policy can best be summed up in a statement made on 
page A-18 of the roadless summary, which reads in part, ``The 
costs are primarily associated with lost opportunities.'' Lost 
opportunities resulting in lost skills, aggravating the 
dangerous trend away from self-reliance. Lost opportunity to 
prepare our children for the future. Lost opportunities to 
instill in following generations a mature relationship with the 
land.
    I have not traveled all this distance to ask for hand-outs. 
I am here to ask your help in ensuring that we will not be 
further limited in our ability to help ourselves.
    I would like to thank you all for this opportunity to 
testify before you. Thank you.
    [Ms. Larson's statement may be found in appendix.]
    Chairman Hill. Stephen.

   TESTIMONY OF STEPHEN STEED, OWNER, UTAH FOREST PRODUCTS, 
                         ESCALANTE, UT

    Mr. Steed. Mr. Chairman and members of the House Small 
Business Subcommittee, my name is Stephen Steed and I manage a 
company called Utah Forest Products. It is a small business in 
southern Utah, in Escalante next to the Grand Staircase 
National Monument, which some of you may have heard about.
    If no harvest proposal is made and the Forest Service 
roadless policy is implemented, my company will be forced out 
of business. We employ 120 men and women through our company 
and our logging contractors. Thirteen of these people are 
Native Americans and 16 are women. Our direct and indirect 
payroll totals $2.9 million per year and we utilize 13.5 
million boardfeet of federal logs a year to keep our mill 
operating.
    Our family began working in the timber industry in Idaho 
and southern Utah in 1832. Our family has survived in the town 
of Escalante for over 42 years in the lumber business. In 1961 
my dad upgraded our mill with the help of an SBA-guaranteed 
loan. A second loan was made to make improvements in 1972 and 
then, in 1975 when our mill burned, my mother rebuilt the mill 
with another SBA-guaranteed loan. I am proud to tell you that 
all three of those loans were paid off in full.
    In 1977 Allied Forest Product, a company in Oregon, 
purchased our family company and later sold it to Kaibab Forest 
Industries in 1993. Allied closed our operation in Escalante to 
facilitate the continued existence of a Kaibab sawmill in 
Panguitch, Utah.
    In 1993, my partners and I purchased a large Forest Service 
SBA set-aside timber sale and received a Department of 
Agriculture rural economic development grant for $18,000. That 
grant was spent on the design of a new sawmill and over the 
years, we have received both encouragement and financial 
assistance from the federal government.
    Today we face a proposal and an agency bent on destroying 
everything that my family has worked for for over 165 years. I 
know it is not this Committee's job to oversee natural resource 
issues but it is your job to provide oversight to ensure that 
the Small Business Administration and the Forest Service 
complete accurate economic assessments of the policies that 
impact small business. I believe if the true impacts of the 
roadless policy are honestly articulated that our political 
leaders will not allow the Forest Service to finalize these 
wrong-headed policies.
    In the Forest Service's roadless EIS, the only references 
to the economic impacts on our communities are in Table 3-54 
that indicates between 46 and 59 direct jobs could be lost in 
communities near the Dixon, Fishlake and Manti-Lasal National 
Forests and in Table 3-55, which indicates that our counties 
have a low resilience to economic disruption.
    In reality, there are 14 small family-owned sawmills in 
Utah that depend on federal timber. I have a map up here. The 
dots show you where those little lumber mills are located. 
There are no large businesses in Utah. They are all small 
businesses and they are all family-owned small businesses.
    These sawmills directly employ over 406 people and 
indirectly employ another 200 loggers and truckers. Over half 
the sales planned for this year in the three southern Utah 
forests were in RARE II roadless areas. Over 67 percent of the 
forest lands in national forests in Utah are either in 
wilderness or within the boundaries of RARE II roadless areas. 
Without this volume, most of these companies will go out of 
business.
    In the small town of Escalante where my family has thrived 
for four generations, 63 of 248 students that go to preschool 
and K through 12 are children of employees at Utah Forest 
Products.
    Mr. Chairman, we are a family who has benefitted from 
federal programs to encourage rural economic development and it 
is troubling and incredibly sad to learn that this 
administration so despises rural America. It is sad for 
thousands of families who work in these small forest product 
companies but, more importantly, it is sad that I have to tell 
the school children of Escalante that the federal government 
and this Congress does not care enough about them to even 
honestly tell us what the economic impacts of these policies 
will be.
    I will be happy to answer any questions you might have and 
I appreciate the opportunity to testify. Thank you.
    [Mr. Steed's statement may be found in appendix.]
    Chairman Hill. Bruce, you can proceed.

TESTIMONY OF BRUCE VINCENT, COMMUNITIES FOR A GREAT NORTHWEST, 
                           LIBBY, MT

    Mr. Vincent. Thank you, Mr. Chairman. Representative Hill, 
you are my representative and I am very glad for that.
    I would especially like to thank Ms. Christian-Christensen 
for being here as a minority leader and sticking around. We 
have all traveled a long way and we appreciate you being here 
to hear us.
    I am a fourth generation Montanan. I am a third generation 
practical applicator of academic forest management theory. Some 
people call that a logger. I am a co-owner of Vincent Logging 
and serve as volunteer president of Communities for a Great 
Northwest and I am going to focus my remarks on the Clinton-
Gore roadless initiative because the subject of impact from 
this initiative has been very, very difficult to get our arms 
around.
    You heard today some answers like we get at home. Except 
for rare instances, Forest Service personnel have been unable 
to answer our questions about impact. We are told some forests, 
there are going to be management plans that are scrapped by the 
initiative immediately. We are told some forests, there is no 
immediate management plans being scrapped. The one I live on, 
the Kootenai National Forest, is one of those. But hundreds of 
thousands of acres of Montana alone would have been managed for 
forest health and/or commodity output in the future and future 
management cycles. The Forest Service readily admits in our 
area that the economics of managing areas without roaded access 
will preclude millions of acres from many necessary management 
options and forest restoration.
    How is this going to impact small businesses? That is a 
question we have and we get answers like you heard from Mr. 
Rawls this morning. ``We don't have the information. We are not 
really sure.'' The answer we are given most often is they 
simply do not know, and we are supposed to comment on this 
proposal. As indicated by the Forest Service employees union 
opposition to the initiative, they do not enjoy shrugging their 
shoulders any more than we enjoy getting a shrug for an answer 
at home.
    In some instances we are certain that small business is 
going to be impacted. One example is in my town. That example 
is the Treasure Mountain Recreation Area in Libby. We have 
known for decades that we need to diversify our economy beyond 
the commodity management industries and experts in recreation 
have told us that we have an excellent opportunity to attract 
regional tourists and become an attractive setting for new 
businesses if we offer amenities built upon our abundant 
natural beauty and terrain.
    Right now 93 percent of the recreational use of our 2.5 
million acre forest has been identified as road access required 
activities, like scenic driving, wildlife viewing, berry 
picking, and stuff like that. To add to these opportunities we 
identified world class snow quality on a mountain by town, 
world class scenic splendor on a mountain by town. That 
mountain was Treasure Mountain. As a complete year-round 
recreation area with a light footprint on the ecosystem, all 
the buildings would be in towns, so we would not impact the 
mountain that we look at every day. We can bolster the three-
month tourist season of our area and improve the potential to 
attract start-up, expanding or relocating small light 
manufacturing or technology businesses--the future we are told 
we should be seeking.
    With tens of thousands of volunteer man-hours, our 
community formed a Sustainability Task Force, an economic 
Development Council, a specific committee to make this dream a 
reality. $226,000 in local money and grant money has been spent 
in preparing for an EIS. You can imagine the hollow pit in our 
stomach when the Forest Service confirmed in May that the 
Treasure Mountain Recreation Area proposal will be killed by 
the roadless initiative.
    Our hopes were not the only thing that was dashed, either. 
As important to long-term planning with a government that owns 
80 percent of the county that you live in is trust. For 10 
years we have worked with the local Forest Service on this 
project and others trusting that we would be dealt with in good 
faith. This initiative, the roadless initiative, and the news 
that our project was going to be killed landed in our table of 
collaborative trust like a Scud missile launched from the Oval 
Office.
    To compound the insult, the horrendous socioeconomic 
language that you have heard about in the DEIS attacks hard 
working, innovative, entrepreneurial people in our culture. I 
am one of them. I have a masters degree in business, a civil 
engineering degree. I chose to live in Libby, Montana and 
perfect the art of logging in the forest that I live in and 
love and to be called an overpaid, undereducated social misfit 
is a tragedy beyond belief for me, my family and my culture.
    There is indeed going to be some impact with this ruling. 
How much impact? Except for killing to potential of Treasure 
Mountain Recreation Area, the Forest Service has said they do 
not know. That, ladies and gentlemen, makes it a bit difficult 
for us to comment on this initiative with certainty.
    I would like to suggest that a new look at the impact of 
federal actions on our rural communities be considered. The 
Forest Service is not proposing this initiative in a vacuum. 
There is simultaneous revision of many things you have heard 
about earlier today--the Forest Service travel management plan, 
Interior Columbia Basin Ecosystem Management Project, 
continuing impacts from endangered species like the salmon, 
grizzly bear, lynx, white sturgeon, bull trout, bag-hugging 
monkey flower, bastard flax, and a host of others. We have air 
quality issues because we are a high mountain valley. They are 
going to be contributed to when we turn our forests down 
instead of managing it. We had the EPA in town because we have 
asbestos-related illnesses detected in the '70s and '80s by 
that agency but not acted on until 1999.
    No single issue stands alone in impacting the struggling 
small businesses of our area. Taken together, however, the 
cumulative effect of all the federal action during the last 
decade have yielded a county that leads our state in 
unemployment, and our state leads the nation in poverty. We are 
50th in per family per capital income. We just blew 
Mississippi's doors off and we are not proud of it.
    Since 1990, my community has seen a 75 percent reduction in 
community returned from the Kootenai National Forest. My family 
business has shrunk from one that employed 65 families 10 years 
ago to one that now employs five. We are not the exception. We 
are the rule in our area and we are told that tourism is our 
future but every time we attempt something like Treasure 
Mountain or another tourist-broadening approach, that effort 
meets the same restrictions as our basic industries have met.
    I would like to suggest that the federal agencies be 
required to complete not just an action-specific report, and 
they have been woefully short on this roadless initiative, but 
a cumulative effects analysis. Such an analysis would consider 
how actions like this impact our community businesses with all 
other regulatory actions taken into consideration. Cumulative 
effects analysis is a requirement of law when discussing 
endangered species and yet when my community asks the federal 
government to do a cumulative effects analysis on the grizzly 
bear because we had competing agencies saying there was impact 
and there was not impact, we wanted an answer, similar to this. 
And the answer we were given when we asked for analysis is ``We 
are not required to by law. The model would be too complex to 
do, so we do not have to do it.'' And they did not.
    No single action has accomplished this situation in my 
town. The roads to the closed sawmills and stud mills and mines 
and Main Street businesses and our diseased and dying forests 
are paved with incremental impacts. Individually, the impacts 
may seem small but collectively, we have closed businesses and 
our jobs and our families have paid the price. The roadless 
initiative is one more proposed action that will have impact. 
It has been woefully understudied. It shouldbe further studied 
as a specific action under the Small Business Regulatory Flexibility 
Act and within the concept of cumulative effects.
    I thank you for allowing me to testify today.
    [Mr. Vincent's statement may be found in appendix.]
    Chairman Hill. Thank you, Bruce. I would just comment that 
when the Interior Appropriation Bill--under the leadership of 
Mr. Nethercutt, we asked that the Interior Columbia Basin 
Management Plan be subject to the impact analysis on small 
business and the administration has threatened to veto that 
bill because of the existence of an amendment that would 
require that.
    Carl, if you would care to proceed.

   TESTIMONY OF CARL FIEDLER, RESEARCH ASSOCIATE PROFESSOR, 
SILVICULTURE AND FOREST ECOLOGY, SCHOOL OF FORESTRY, UNIVERSITY 
                    OF MONTANA, MISSOULA, MT

    Mr. Fiedler. My name is Carl Fiedler. I am associate 
research professor at the University of Montana School of 
Forestry.
    Chairman Hill, ranking Committee member Christian-
Christensen, I appreciate the chance to testify today on the 
conditions of western forests and the potential ecological and 
economic benefits associated with treating these conditions.
    The out-by-10 a.m. fire policy followed for years by 
federal agencies and that was referred to earlier this morning 
in testimony has been very effective but there has been a side 
effect that is not desirable and it has dramatically affected 
particularly ponderosa pine and pine fir forests of the West. 
Previously open stands have filled in with small and medium 
size trees. These trees serve as ladder fuels that allow 
normally low intensity fires to torch into the overstory and 
become lethal crown fires. And this is a big deal because pine 
and pine fir forests occupy up to about 40 million acres of the 
American West.
    The widespread perception of these in the American press 
and TV and newspapers is that this is simply a problem of too 
many small trees and that rectifying this problem is expensive. 
Federal officials have widely recommended a treatment called 
thinning from below, a treatment that calls for thinning little 
trees up to about six, eight or 10 inches.
    Professor Keegan and I recently conducted a study to 
evaluate the ecological and economic implications of this thin-
from-below prescription, compared to an approach determined by 
what a sustainable stand should look like, then choosing 
treatments to achieve that condition. This comprehensive 
prescription includes a thinning from below to remove these 
ladder fuels. It also includes an improvement cut to reduce the 
composition of shade tolerant species and a modified selection 
cut that lowers stand density sufficiently to secure 
regeneration of ponderosa pine, to ensure the sustainability of 
the stands, and it also spurs development of large trees, which 
are especially resistant to fire.
    We applied each of these prescriptions to a hypothetical or 
an average stand based on the average of inventory records from 
over 500 stands in Western Montana. The result was a small 
amount of wood removed from the thin-from-below treatment worth 
less than the cost of treatment. The comprehensive treatment 
produced 4,000 boardfeet per acre and left the stand vigorous, 
resistant to fire and visually appealing. And I would refer you 
to the three posters arrayed here on the table in the rear of 
the room. And I would mention that not just small trees were 
removed in this treatment.
    There are several really important reasons to implement the 
comprehensive treatment that we looked at and especially to do 
so on a broad scale. The first of these is that the long-term 
sustainability of the huge acreages of ponderosa pine and pine 
fir forest are at risk. Ponderosa pine trees are well adapted 
to surviving surface fires but not crown fires, and I would 
refer you to two posters that Professor Keegan will hold up 
here in a minute.
    The first of these two is a picture taken in 1982 in 
central Montana in the Bull Mountains of central Montana, the 
heart of pine country. The second photo is taken from nearly 
the same spot and unfortunately, it was transposed in the 
making of these posters as an aftershot. This was taken in 
1998, approximately 12 years after this fire, and this area is 
still essentially treeless.
    The landscape-scale fires of recent years, such as the 
Cerro Grande in New Mexico, the Early Bird in Montana and the 
Lowman Complex in Idaho are really harbingers of bigger and 
hotter fires to come. Will the next fire be in the Tahoe Basin 
in California and Nevada? Will it be in Ruidoso, New Mexico, 
Sholo, Arizona? And will this next event claim human lives? 
Will we do something about it?
    Many ecologist benefits derive from comprehensively 
treating hazardous conditions in our forests. Equally important 
to these and with these are the associated benefits of 
employment of woods workers in rural communities and production 
of substantial volumes of timber to help offset increasing 
domestic dependence on imported wood.
    So what are the long-term implications of current 
conditions in Western forests? I would first relate what the 
eminent conservationist Aldo Leopold referred to when he 
defined ecosystem health. His definition was a system that can 
recover after a disturbance is healthy. Based on this 
definition, many pine forests in the West are neither healthy 
nor sustainable.
    The good news is that we have silvicultural treatments 
available to treat these problems. What is needed is timely, 
strategic-level implementation of comprehensive treatments 
based on location, extent, and severity of hazardous 
conditions. However, given that inventory data are incomplete 
or not yet analyzed, particularly for roadless areas, this is 
currently not possible across all National Forest System lands. 
It seems imprudent to make irreversible decisions now that may 
affect the long-term sustainability of some of these areas when 
inventory information on ecological conditions will be 
forthcoming in a few years. The American public is not well 
served by decisions made absent such information and certainly 
our forests deserve better. Thank you.
    [Mr. Fiedler's statement may be found in appendix.]
    Chairman Hill. Thank you, Carl.
    Chuck.

  TESTIMONY OF CHARLES KEEGAN, DIRECTOR, FOREST INDUSTRY AND 
  MANUFACTURING RESEARCH, UNIVERSITY OF MONTANA, MISSOULA, MT

    Mr. Keegan. Good afternoon. I am Chuck Keegan. I am 
director of forest industry and manufacturing research in the 
Bureau of Business and Economic Research at the School of 
Business Administration at the University of Montana.
    Vice Chairman Hill, ranking minority leader Christian-
Christensen, I very much appreciate the opportunity today to 
speak to you about some key natural resource issues that have 
potential to influence employment in small businesses 
throughout the Western United States. I would like to follow up 
very briefly, building on the testimony of Dr. Fiedler and deal 
in particular with three issues.
    First of all, I would like to contrast the financial 
aspects of the two alternative restoration prescriptions to 
which Dr. Fiedler referred. I would then like to illustrate the 
potential for positive employment impacts from the broad scale 
implementation of forest restoration prescriptions in the 
Western United States. And then finally, I would like to offer 
some of my concerns over the current roadless proposal. So 
Carl, would you hold that first figure up?
    First of all, let me very quickly compare the financial 
aspects of the comprehensive versus the thin-from-below 
prescription. The comprehensive prescription, this is expressed 
in net dollars per acre for the timber products produced in the 
development of a prescription developed by Dr. Fiedler and some 
ecologists strictly to treat a stand. The comprehensive 
prescription is in blue and the thin-from-below is in pink. It 
does not require much explanation to see that the blue line 
amounts to somewhere between $500 and $1000 per acre, depending 
on logging systems, terrain involved, and the thin-from-below 
prescription is negative, as Dr. Fiedler mentioned, and loses 
several hundred dollars per acre.
    So what we have here is a prescription in blue that deals 
comprehensively with an ecological situation and also generates 
a positive revenue flow for a typical site in Western Montana 
of $500 to $1000 an acre.
    Focussing then on employment in rural areas, the fact that 
these comprehensive prescriptions not only put the stand 
ecologically in a much better condition but also generate a 
positive cash flow should allow then for broad scale 
application of these kinds of prescriptions in Western forests. 
And the broad scale implementation of these is what would have 
some large scale potential to sustain and to even increase 
employment in the Western United States.
    If I could have that second poster quickly, Carl, it is a 
figure that is included in my testimony. I will not offer much 
explanation except to say that the last portion of that shows 
labor intensity or employment per unit of timber harvested and 
what you can see is that the forest products industry in 
Montana has been becoming more labor intensive in the last 
decade and part of the reason for that is because of changes in 
the way timber is harvested to pay more attention to social and 
biological concerns.
    Well, then when we take the next step and we look at these 
restoration prescriptions and we see prescriptions that are 
designed again not to produce timber at the lowest possible 
cost but to produce a desire future forest condition, then we 
see an opportunity to even increase the labor intensity 
involved in the woods and add employment in woods workers.
    So we have a dual benefit to employment through broad scale 
implementation of these restoration prescriptions and that is 
one, that we are providing raw materials for manufacturing by 
the mills in the area and we also are producing the timber in a 
more labor intensive fashion.
    I might also add that, as has been pointed out by some 
people on the earlier panels, jobs in forest management, timber 
harvesting and processing are among, if not the highest paying 
components of the economy in much of the rural West.
    Finally, some brief comments on the roadless issue itself. 
First of all, I want to say that I am not here to support 
building a lot of new roads necessarily. It makes sense to 
focus in the immediate future on those portions of the national 
forests that are roaded if we are talking about restoration 
prescriptions. Those are the areas that can be treated most 
immediately and most economically. Those are the areas that 
have the most immediate threat to human life and property.
    However, given that we know that we have a very broad scale 
forest ecosystem health problem throughout the Western United 
States, it is almost certain that the roadless areas have large 
areas that are ecologically out of balance, out of whack.
    And a very key point that I want to make in concluding here 
is that we do not know very much about these roadless lands. 
Inventory data on many of these lands are either incomplete or 
have not been analyzed, and this is certainly the case for 
Idaho and Montana, two states that have the largest acreage 
involved. Nearly 30 percent of the acreage involved in the 
recent roadless proposal is in Idaho and in Montana.
    So my final thought to this group today is that before we 
have adequately analyzed the inventory in terms of both the 
ecosystem health of these lands and, in addition, for the 
potential commercial timber value that might be on those lands, 
the resolution of the roadless issue is, to say the least, 
grossly premature. Thank you.
    [Mr. Keegan's statement may be found in appendix.]
    Chairman Hill. Thank you, Mr. Keegan.
    Does the gentlelady have any questions?
    Ms. Christian-Christensen. I want to thank the panel for 
their patience in allowing us--I do not vote, but allowing the 
chairman to vote and still coming back to give their testimony 
and for traveling so far to do so.
    I guess I have a few questions just to help me better 
understand and wade through the differing opinions. The logging 
industry, and many of you have claimed that local economies 
depend on the tax base provided by the logging of public lands 
but supporters of the roadless initiative claim that local 
economies do not depend upon logging on public lands. They 
claim that in the states with the most commercial federal 
timber land, logging and wood products employment represents 
only a minor share of overall jobs.
    For example, the Bureau of Labor Statistics in 1997, 
according to them, only 3 percent of all the jobs in Idaho are 
related to wood products; in Oregon, on 4.6 percent. And in 
Colorado, where federal forests account for a large amount of 
the land base, only a half percent of employment is related to 
all wood products.
    Based on those statistics, some would suggest that the 
timber industry is exaggerating the negative economic effects 
of the roadless area initiative. Can you help me to respond to 
those who would suggest that the negative effects are being 
exaggerated?
    Mr. Vincent. I would like to start, if I could. I am not an 
economist and----
    Ms. Christian-Christensen. Me either.
    Mr. Vincent. Chuck Keegan from the University of Montana 
can help you out probably better with the very specifics.
    Some of these early documents, including the Interior 
Columbia Basin Ecosystem Management Project that we have 
mentioned earlier, had very specific information about the town 
that I call home. In that document, they indicated, I believe, 
that less than 15 percent of our local economy was timber 
industry-related. Where they got their information from was a 
phone book survey. It did not yield incredibly accurate data. 
When they were questioned on it, they issued a supplement to 
that portion of the document and I believe the supplemental 
represented a little bit more reality, which is between 65 and 
75 percent of our local economy.
    There are 17,000 people in my county. While that may be a 
minuscule part of America's economic engine, to our area it is 
incredibly important.
    So percentages--when they begin throwing them around, it is 
very, very easy to discount entire segments, entire minorities, 
particularly when you paint a picture of them as discountable--
necessary, in fact, to discount the overpaid, undereducated 
social misfits, because it is better for the environment and 
our society if they are no longer around.
    So this document paints a picture one, using horrendous 
language about who we are as a culture, and then misconstruing 
statistics to make it seem like we are not really impacted, 
anyway, and if we are, it is better for us and the rest of 
America, anyway.
    Someone told me one time we need to beware of statistics 
and I hesitate to use this but it seems like the appropriate 
time. Statistically, everyone should have one breast and one 
testicle. And sometimes when information like 1 percent or 2 
percent of our nation's economy is used, it can be incredibly 
badly misused and humans pay a price for that misuse.
    Mr. Keegan. I would like to address it briefly, I guess 
from a couple of different standpoint, not quite as colorfully 
as Bruce did.
    I guess my first comment would be that we need to be 
careful how we are looking at an economy from a couple of 
standpoints. One is is it a job that is creating wealth and 
creating other jobs, or is it a job that is derived from 
creating wealth and creating other jobs? And jobs in the forest 
products industry are generally export jobs in the local areas 
and generally lead to the creation of other jobs. So we need to 
look at an area's economic base, rather than just the 
percentage of jobs that are involved.
    And I think we need to look at the geographic scale at 
which you are looking at things, and certainly some of the 
areas that you mentioned, the forest products industry would be 
a fairly small percentage of total jobs or even total economic 
base. Some of them, on the other hand, for example, Libby, 
Montana or Lincoln County, Montana, the forest products 
industry, in spite of its problems, remains overwhelmingly the 
largest segment of the economic base, so we need to consider 
that.
    But I think what is more important here is the notion that 
we are being given some kind of a false choice here, that we 
are either going to have timber jobs or we are going to have 
recreation jobs. Dr. Fiedler and I are here to talk about a 
broad scale program that would put the forests in better 
condition ecologically than they are today and sustain and 
probably increase the number of high-paying forest products 
jobs.
    So I think the notion that it is either we are going to 
have healthy forests and recreation-based jobs or timber jobs 
is just a false choice. That has been a part of this whole 
discussion.
    Ms. Christian-Christensen. Thank you.
    Mr. Chairman, I do not have any questions at this point.
    Chairman Hill. Thank you very much.
    I want to continue with the comments that you just made, 
Dr. Keegan, because I think it is really important here for the 
Committee and for the record to reflect the fact that you have 
looked at this issue together, you and Dr. Fiedler, from the 
perspective of both the ecology and the economy.
    And the point I want to make here is that the status quo is 
bad for both. What is happening right now in our national 
forests, at least the forests that you are referring to, is 
that the forest is destroying itself. Is that correct, Dr. 
Fiedler?
    Mr. Fiedler. In many cases the conditions that are 
prevalent out in the landscape today are situations where it is 
not a question of if but when, in terms of fire.
    Chairman Hill. We have a catastrophe on the horizon and the 
health of the forest and the condition of the forest is 
deteriorating and when the fires occur, it is going to be a 
catastrophic event, or at least it could be a catastrophic 
event. This is bad from the ecological point of view. We could 
do a lot better.
    Mr. Fiedler. I also look at the testimony today and the 
nature of this panel is that when we look at the roadless 
areas, we just do not have good information, and that is what I 
think concerns me more than anything or as much as anything. 
And I think your observations are correct in terms of the 
forest conditions but it certainly behooves us to know what it 
is we are dealing with. And when we either, at this point, lack 
complete inventory information or very current right now is 
some of this information just now being analyzed and this rush 
to make a decision, absent this information, is not well 
thought out.
    Chairman Hill. Dr. Keegan, the point you made is that 
Libby, Montana, some of our rural communities have been 
adversely impacted, substantially adversely impacted from an 
economic perspective with the status quo.
    The point I am getting at is what you are suggesting to do, 
the solution has both a positive ecological impact and a 
positive economic impact, or it has that potential. It seems to 
me we ought to choose that.
    Now I showed some maps earlier where I showed the overlay 
of mining claims and I showed the overlay of timber harvest in 
roadless areas and the existence of current inventoried roads 
in roadless areas. I am not sure; I have not figured out how 
the roadless area can have roads.
    But one of the things I asked for was an overlay of the 
proposed roadless areas with the acreage that has been 
identified by the General Accounting Office, the 40 million 
acres or 39 million acres that are subject to catastrophic fire 
loss, and the Forest Service could not provide me with that.
    That is what you are saying, is that before we make a 
decision--isn't that what you are saying?
    Mr. Keegan. Exactly.
    Chairman Hill. Before we make a decision about access, we 
ought to make a decision about what the condition is and what 
the solution is. I mean it is a cart-before-the-horse 
situation, is it not?
    Mr. Keegan. Absolutely. Maybe Carl will be more specific 
but we are within a few years of having infinitely better 
inventory information on these lands. Nothing is going to be 
done in most of these lands in the next year, two, three, four 
years, so it would seem to make sense to me to wait until we 
can analyze not only the satellite data but the on-the-ground 
inventory data and be able to make some very specific 
statements about the condition of these, whether it be for 
commercial purposes or for forest ecosystem health or fire 
concerns.
    Chairman Hill. And at the university you have been leaders 
in developing and applying new technology to get a better 
understanding of this whole set of issues; is that not right?
    Mr. Keegan. Carl and I will not pass ourselves off as the 
people that are working from outer space but we are working on 
the ground to do that sort of thing. We are working with the 
inventory plots on the ground in Montana and in New Mexico at 
this very moment to try to get a handle on the degree of the 
forest ecosystem health problem and the potential treatment 
costs that might be involved and, in fact, where it is 
located--the kinds of information you are asking for.
    Chairman Hill. Bruce, I think in Montana 17 mills have 
closed in the last decade and one closed in Libby, a big mill. 
How many people lost their jobs in the closure of that mill in 
Libby?
    Mr. Vincent. In the sawmill, the one that Stimson was 
operating, just the plywood plant, at one time there were 1,200 
families employed there. Our county as a unit, during the last 
10 years, has lost, I believe, just under 1,800 industrial base 
jobs as a county.
    Mr. Keegan. They have lost a lot. I do not have a number 
off the top of my head.
    Mr. Vincent. You had Champion and the mines that have shut 
down. Our local newspaper reports it as 1,700 jobs.
    Chairman Hill. Out of population of 17,000.
    Mr. Vincent. Out of a population of 17,000. And those are 
the wage-earning jobs that also have benefits so that we can 
provide appropriate medical care, keep our local hospital 
going, pay appropriate wages to our instructors, who are now 
also 47th or 48th in the nation in their income. The impact on 
small business and Main Street America impacts everything.
    I would like to make a comment on one thing you said about 
the cart before the horse. Possibly the biggest issue when we 
talk about this roadless initiative at home is not the roadless 
question at all. You earlier mentioned that you are not 
promoting building one more mile into a place.
    We live there. We love the joint. Part of the reason this 
is a vigorous debate is because as imperfect as we have been, 
we have done a decent enough job to keep the place beautiful 
and look like it does in the year 2000. It seems to many that 
we are now being penalized for keeping it so beautiful. Now 
people want to make a decision about the last best place from 
3,000 miles away.
    So not only is it the cart before the horse but many people 
think it is the wrong horse. It should not be a single horse in 
one office. It should be a team of horses working locally. It 
is taking the decision out of the decision-making process at 
home.
    We have been sitting at the table with the Forest Service, 
putting in thousands of hours trying to decide what each 
microecosystem--because these are not 43 million acre patches; 
they are microecosystems--what should they look like, how can 
we manage them? And to make one broad-based decision that 
removes so many options from us is a tragedy.
    Chairman Hill. Cheryl, what impact have these federal 
transportation policies had on your school? You mentioned 
something about the budget of your school but could you 
elaborate on that a little bit?
    Ms. Larson. Well, our oldest son is handicapped. He is in 
an electric wheelchair. And our high school was built when my 
mother was a student, so it is not accessible and our small 
district does not have the funds to make it accessible. That 
takes thousands and thousands of dollars. He has already gone 
through the grade school system but now he is going through the 
high school and it is a big nightmare every day.
    Chairman Hill. Challenges.
    Well, the tragedy of this situation is that I believe this 
initiative is motivated by politics, rather than by good 
policy, but it is going to have significant consequences if it 
goes through without thinking thoroughly through what all the 
impacts of this are going to be. We often talk about the war in 
the West but it just seems like we are engaged in this whole 
series of battles right now, just trying to make common sense 
out of the public land management decisions.
    Lincoln County--what is it?--97 percent of the land in 
Lincoln County? Is that the right number?
    Mr. Vincent. A little over 78 percent is owned by the 
federal government, another 7 percent by the state. Eighty-five 
percent is publicly owned.
    I have three of my kids here. We are talking about their 
future and when we talk about it is not if; it is when this 
stuff burns, there are things we can do to help the forest and 
help our community and help the wildlife, the habitat for the 
species that we commune with, if we do it right. But we are not 
going to do that with the decisions made from 3,000 miles away.
    Mr. Fiedler. One last comment on the inventory issue is 
that in any aspect of our personal lives or at any level of 
government, I think we do not make decisions based on not 
getting information, and none of us would make a decision 
saying I do not want more facts; I do not want to know the 
various sides of the issue before making a decision. And I 
think that is what is going on here and it does not need to be, 
as Dr. Keegan just mentioned here a minute ago, we have 
inventory information either being collected as we speak here 
or that is being analyzed and we are involved in some of it 
ourselves and it just seems so premature to do this now when, 
in a few years, we will have better information to make a more 
informed decision.
    Chairman Hill. I thank all the members of the panel for 
your testimony. It has been very, very valuable. I also 
apologize for how long the hearing has taken but we wanted to 
give everybody the opportunity to make their statements for the 
record. And I apologize for the fact that we did have to go 
vote, but occasionally we do have to do that part of the job, 
too.
    The hearing record will be open for 14 days. We are going 
to be providing requests in writing for some additional 
testimony from the Department of Agriculture and from the Small 
Business Administration and we are hopeful that they will 
provide the documentation that we have asked for.
    Thank you all and the hearing is adjourned, subject to 14 
days. Thank you very much.
    [Whereupon, at 1:40 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T7682A.001
    
    [GRAPHIC] [TIFF OMITTED] T7682A.002
    
    [GRAPHIC] [TIFF OMITTED] T7682A.003
    
    [GRAPHIC] [TIFF OMITTED] T7682A.004
    
    [GRAPHIC] [TIFF OMITTED] T7682A.005
    
    [GRAPHIC] [TIFF OMITTED] T7682A.006
    
    [GRAPHIC] [TIFF OMITTED] T7682A.007
    
    [GRAPHIC] [TIFF OMITTED] T7682A.008
    
    [GRAPHIC] [TIFF OMITTED] T7682A.009
    
    [GRAPHIC] [TIFF OMITTED] T7682A.010
    
    [GRAPHIC] [TIFF OMITTED] T7682A.011
    
    [GRAPHIC] [TIFF OMITTED] T7682A.012
    
    [GRAPHIC] [TIFF OMITTED] T7682A.013
    
    [GRAPHIC] [TIFF OMITTED] T7682A.014
    
    [GRAPHIC] [TIFF OMITTED] T7682A.015
    
    [GRAPHIC] [TIFF OMITTED] T7682A.016
    
    [GRAPHIC] [TIFF OMITTED] T7682A.017
    
    [GRAPHIC] [TIFF OMITTED] T7682A.018
    
    [GRAPHIC] [TIFF OMITTED] T7682A.019
    
    [GRAPHIC] [TIFF OMITTED] T7682A.020
    
    [GRAPHIC] [TIFF OMITTED] T7682A.021
    
    [GRAPHIC] [TIFF OMITTED] T7682A.022
    
    [GRAPHIC] [TIFF OMITTED] T7682A.023
    
    [GRAPHIC] [TIFF OMITTED] T7682A.024
    
    [GRAPHIC] [TIFF OMITTED] T7682A.025
    
    [GRAPHIC] [TIFF OMITTED] T7682A.026
    
    [GRAPHIC] [TIFF OMITTED] T7682A.027
    
    [GRAPHIC] [TIFF OMITTED] T7682A.028
    
    [GRAPHIC] [TIFF OMITTED] T7682A.029
    
    [GRAPHIC] [TIFF OMITTED] T7682A.030
    
    [GRAPHIC] [TIFF OMITTED] T7682A.031
    
    [GRAPHIC] [TIFF OMITTED] T7682A.032
    
    [GRAPHIC] [TIFF OMITTED] T7682A.033
    
    [GRAPHIC] [TIFF OMITTED] T7682A.034
    
    [GRAPHIC] [TIFF OMITTED] T7682A.035
    
    [GRAPHIC] [TIFF OMITTED] T7682A.036
    
    [GRAPHIC] [TIFF OMITTED] T7682A.037
    
    [GRAPHIC] [TIFF OMITTED] T7682A.038
    
    [GRAPHIC] [TIFF OMITTED] T7682A.039
    
    [GRAPHIC] [TIFF OMITTED] T7682A.040
    
    [GRAPHIC] [TIFF OMITTED] T7682A.041
    
    [GRAPHIC] [TIFF OMITTED] T7682A.042
    
    [GRAPHIC] [TIFF OMITTED] T7682A.043
    
    [GRAPHIC] [TIFF OMITTED] T7682A.044
    
    [GRAPHIC] [TIFF OMITTED] T7682A.045
    
    [GRAPHIC] [TIFF OMITTED] T7682A.046
    
    [GRAPHIC] [TIFF OMITTED] T7682A.047
    
    [GRAPHIC] [TIFF OMITTED] T7682A.048
    
    [GRAPHIC] [TIFF OMITTED] T7682A.049
    
    [GRAPHIC] [TIFF OMITTED] T7682A.050
    
    [GRAPHIC] [TIFF OMITTED] T7682A.051
    
    [GRAPHIC] [TIFF OMITTED] T7682A.052
    
    [GRAPHIC] [TIFF OMITTED] T7682A.053
    
    [GRAPHIC] [TIFF OMITTED] T7682A.054
    
    [GRAPHIC] [TIFF OMITTED] T7682A.055
    
    [GRAPHIC] [TIFF OMITTED] T7682A.056
    
    [GRAPHIC] [TIFF OMITTED] T7682A.057
    
    [GRAPHIC] [TIFF OMITTED] T7682A.058
    
    [GRAPHIC] [TIFF OMITTED] T7682A.059
    
    [GRAPHIC] [TIFF OMITTED] T7682A.060
    
    [GRAPHIC] [TIFF OMITTED] T7682A.061
    
    [GRAPHIC] [TIFF OMITTED] T7682A.062
    
    [GRAPHIC] [TIFF OMITTED] T7682A.063
    
    [GRAPHIC] [TIFF OMITTED] T7682A.064
    
    [GRAPHIC] [TIFF OMITTED] T7682A.065
    
    [GRAPHIC] [TIFF OMITTED] T7682A.066
    
    [GRAPHIC] [TIFF OMITTED] T7682A.067
    
    [GRAPHIC] [TIFF OMITTED] T7682A.068
    
    [GRAPHIC] [TIFF OMITTED] T7682A.069
    
    [GRAPHIC] [TIFF OMITTED] T7682A.070
    
    [GRAPHIC] [TIFF OMITTED] T7682A.071
    
    [GRAPHIC] [TIFF OMITTED] T7682A.072
    
    [GRAPHIC] [TIFF OMITTED] T7682A.073
    
    [GRAPHIC] [TIFF OMITTED] T7682A.074
    
    [GRAPHIC] [TIFF OMITTED] T7682A.075
    
    [GRAPHIC] [TIFF OMITTED] T7682A.076
    
    [GRAPHIC] [TIFF OMITTED] T7682A.077
    
    [GRAPHIC] [TIFF OMITTED] T7682A.078
    
    [GRAPHIC] [TIFF OMITTED] T7682A.079
    
    [GRAPHIC] [TIFF OMITTED] T7682A.080
    
    [GRAPHIC] [TIFF OMITTED] T7682A.081
    
    [GRAPHIC] [TIFF OMITTED] T7682A.082
    
    [GRAPHIC] [TIFF OMITTED] T7682A.083
    
    [GRAPHIC] [TIFF OMITTED] T7682A.084
    
    [GRAPHIC] [TIFF OMITTED] T7682A.085
    
    [GRAPHIC] [TIFF OMITTED] T7682A.086
    
    [GRAPHIC] [TIFF OMITTED] T7682A.087
    
    [GRAPHIC] [TIFF OMITTED] T7682A.088
    
    [GRAPHIC] [TIFF OMITTED] T7682A.089
    
    [GRAPHIC] [TIFF OMITTED] T7682A.090
    
    [GRAPHIC] [TIFF OMITTED] T7682A.091
    
    [GRAPHIC] [TIFF OMITTED] T7682A.092
    
    [GRAPHIC] [TIFF OMITTED] T7682A.093
    
    [GRAPHIC] [TIFF OMITTED] T7682A.094
    
    [GRAPHIC] [TIFF OMITTED] T7682A.095
    
    [GRAPHIC] [TIFF OMITTED] T7682A.096
    
    [GRAPHIC] [TIFF OMITTED] T7682A.097
    
    [GRAPHIC] [TIFF OMITTED] T7682A.098
    
    [GRAPHIC] [TIFF OMITTED] T7682A.099
    
    [GRAPHIC] [TIFF OMITTED] T7682A.100
    
    [GRAPHIC] [TIFF OMITTED] T7682A.101
    
    [GRAPHIC] [TIFF OMITTED] T7682A.102
    
    [GRAPHIC] [TIFF OMITTED] T7682A.103
    
    [GRAPHIC] [TIFF OMITTED] T7682A.104
    
    [GRAPHIC] [TIFF OMITTED] T7682A.105
    
    [GRAPHIC] [TIFF OMITTED] T7682A.106
    
    [GRAPHIC] [TIFF OMITTED] T7682A.107
    
    [GRAPHIC] [TIFF OMITTED] T7682A.108
    
    [GRAPHIC] [TIFF OMITTED] T7682A.109
    
    [GRAPHIC] [TIFF OMITTED] T7682A.110
    
    [GRAPHIC] [TIFF OMITTED] T7682A.111
    
    [GRAPHIC] [TIFF OMITTED] T7682A.112
    
    [GRAPHIC] [TIFF OMITTED] T7682A.113
    
    [GRAPHIC] [TIFF OMITTED] T7682A.114
    
    [GRAPHIC] [TIFF OMITTED] T7682A.115
    
    [GRAPHIC] [TIFF OMITTED] T7682A.116
    
    [GRAPHIC] [TIFF OMITTED] T7682A.117
    
    [GRAPHIC] [TIFF OMITTED] T7682A.118
    
    [GRAPHIC] [TIFF OMITTED] T7682A.119
    
    [GRAPHIC] [TIFF OMITTED] T7682A.120
    
    [GRAPHIC] [TIFF OMITTED] T7682A.121
    
    [GRAPHIC] [TIFF OMITTED] T7682A.122
    
    [GRAPHIC] [TIFF OMITTED] T7682A.123
    
    [GRAPHIC] [TIFF OMITTED] T7682A.124
    
    [GRAPHIC] [TIFF OMITTED] T7682A.125
    
    [GRAPHIC] [TIFF OMITTED] T7682A.126
    
    [GRAPHIC] [TIFF OMITTED] T7682A.127
    
    [GRAPHIC] [TIFF OMITTED] T7682A.128
    
    [GRAPHIC] [TIFF OMITTED] T7682A.129
    
    [GRAPHIC] [TIFF OMITTED] T7682A.130
    
    [GRAPHIC] [TIFF OMITTED] T7682A.131
    
    [GRAPHIC] [TIFF OMITTED] T7682A.132
    
    [GRAPHIC] [TIFF OMITTED] T7682A.133
    
    [GRAPHIC] [TIFF OMITTED] T7682A.134
    

</pre></body></html>
